<html>
<title> - WORKPLACE TRAGEDIES: EXAMINING PROBLEMS AND SOLUTIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
         WORKPLACE TRAGEDIES: EXAMINING PROBLEMS AND SOLUTIONS

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN LINDEN, NJ, JANUARY 14, 2008

                               __________

                           Serial No. 110-74

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
39-970 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Donald M. Payne, New Jersey          Joe Wilson, South Carolina,
Timothy H. Bishop, New York            Ranking Minority Member
Carol Shea-Porter, New Hampshire     Tom Price, Georgia
Phil Hare, Illinois                  John Kline, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on January 14, 2008.................................     1

Statement of Members:
    Wilson, Hon. Joe, ranking minority member, Subcommittee on 
      Workforce Protections......................................     5
        Prepared statement of....................................     5
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Engler, Rick, director, New Jersey Work Environment Council 
      (WEC)......................................................    24
        Prepared statement of....................................    26
    Frumin, Eric, director of occupational safety and health, 
      UNITE HERE.................................................     9
        Prepared statement of....................................    11
    Socolow, David J., Commissioner, New Jersey Department of 
      Labor and Workforce Development............................    13
        Prepared statement of....................................    15
    Stanley, James W., president, FDRsafety......................    21
        Prepared statement of....................................    23
    Wowkanech, Charles, president of the New Jersey State AFL-CIO    18
        Prepared statement of....................................    20


         WORKPLACE TRAGEDIES: EXAMINING PROBLEMS AND SOLUTIONS

                              ----------                              


                        Monday, January 14, 2008

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:00 p.m., in 
the third floor courtroom, Linden City Hall, 301 North Wood 
Avenue, Linden, New Jersey, Hon. Lynn C. Woolsey [chairwoman of 
the subcommittee] presiding.
    Present: Representatives Woolsey, Payne, and Wilson.
    Also Present: Representatives Andrews and Holt.
    Staff Present: Jordan Barab, Health/Safety Professional; 
Lynn Dondis, Senior Policy Advisor, Subcommittee on Workforce 
Protection; Sara Lonardo, Staff Assistant, Labor; and Richard 
Hoar, Minority Professional Staff Member.
    Chairwoman Woolsey. A quorum is present. The hearing of the 
Workforce Protection Subcommittee on Workforce Tragedies: 
Examining Protections and Problems and Solutions will come to 
order.
    Pursuant to Committee Rule 12A any Member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    I now recognize myself, followed by Ranking Member Joe 
Wilson and Congressman Payne for opening statements.
    I want to say good afternoon to all of you. Thank you for 
being here. Thank you, Mayor Gerbounka and staff for making us 
so comfortable and for hosting us today. My staff tells me his 
staff has been a joy to work with. So thank you very much.
    It is a pleasure to be in Linden today and I want to 
welcome our witnesses. Thank you for being here with us. Thank 
you attendees for being in the audience and caring about what 
we care about.
    I want to particularly thank Congressman Donald Payne for 
not only suggesting, but pushing and encouraging this hearing 
for us today and thank him for all of his great work on behalf 
of working people. Thank you, Congressman Payne.
    I am delighted that Representative Wilson, Ranking Member 
of the subcommittee is present to be with us today. And I also 
want to welcome Representatives Rob Andrews and Rush Holt who 
are Members of the Full Education and Labor Committee for being 
with us.
    While it's very nice to visit the Garden State of New 
Jersey, I wish this hearing was not necessary, especially when 
these workplace deaths could have been avoided. On December 1, 
Victor Diaz and Carlos Diaz, employees of North East Linen 
Company were killed as they were power washing a 20,000 gallon 
dilution tank in an industrial laundry facility located right 
here in Linden. They were working in a confined space, but they 
were working without the protective gear and precautions 
required by OSHA's confined space standard. There was no 
attendant present to ensure their safety and no harnesses to 
haul them to safety when they got into trouble. And so Victor 
and Carlos Dias suffocated from exposure to toxic chemicals.
    Like many workers in this country, Victor and Carlos worked 
in the industrial laundry industry where employees have been 
largely forgotten and the hazards of that industry go 
unnoticed. Yet, these workers who clean the linens and the 
uniforms for hospitals and other institutions face serious 
hazards, deadly chemicals, machinery that can kill and maim, 
carelessly discarded contaminated needles and painful back 
injuries.
    Unfortunately, what happened to Victor and Carlos was not 
an isolated incident in the laundry industry. For example, in 
March of last year, Eleazar Torres-Gomez, an employee at Cintas 
Corporation's industrial laundry facility in Tulsa, Oklahoma, 
died after being caught in machinery and dragged into a dryer 
where he was killed. In December, Victor and Carlos Diaz were 
also working in a confined space and they were right here in 
New Jersey where deaths and injuries in these conditions are 
all too common.
    In fact, this was the third multi-worker confined spaces 
fatality in the United States in the last four months. Here is 
another statistic: more than 5700 workers died in the workplace 
last year in the United States of America. This is the 21st 
century. These numbers are not acceptable. Sixteen deaths every 
day in the United States. But this number doesn't even come 
close to accurately counting deaths resulting from work-related 
illnesses. In fact, the National Institute for Occupational 
Safety and Health estimates that between 50,000 and 60,000 
workers die every year as a result of workplace illnesses. The 
sad fact is that most of these deaths and illnesses could have 
been prevented had OSHA standards and other well-recognized 
safe working procedures been followed.
    The Members of this subcommittee and the full Education and 
Labor Committee chaired by Representative George Miller from 
California, have made worker health and safety one of our top 
priorities this year. And this hearing will supplement our on-
going investigation into why American workers in the 21st 
century in the wealthiest nation in the world are not 
protected.
    Unfortunately, what we have established thus far is that 
the current Administration has failed to keep America's promise 
to send workers home at the end of each day alive and in good 
health. Instead, OSHA has bowed to the request of employers and 
has relied on companies' voluntary compliance rather than 
enforcing existing laws and issuing new protective standards to 
address new and existing standards. This Congress has been 
forced to move forward to compel OSHA and other agencies at the 
Department of Labor to live up to the responsibility given them 
under the law.
    So Congressman Andrews and I have legislation pending to 
expand OSHA protections to the 8.6 million public employees who 
are currently without OSHA coverage. This legislation also 
raises civil penalties on employers and makes felony charges 
available against employers who commit willful violations. The 
House has also just about--I think it's going to happen next 
week. We're about to take up crucial mine legislation to force 
the Mine Safety and Health Administration to keep miners safe.
    Last fall, the House passed the bill that I had introduced, 
the Popcorn Lung Workers Disease Prevention Act that will 
require OSHA to develop standards to protect workers exposed to 
diacetyl. You may have never even heard of diacetyl. This 
legislation was necessary because popcorn and flavoring workers 
who work around the chemical are contacting popcorn lung, an 
irreversible life-threatening respiratory disease, at an 
alarming rate. And OSHA has simply failed on a timely basis to 
protect these workers. And now we're learning that grill cooks 
are also affected by this already deadly chemical. And you know 
what, we eat it. So we better start paying attention to this 
stuff.
    In addition and in response to the health and safety 
hazards of Cintas Corporation that have been killing and 
injuring its workers, we are examining why OSHA cannot or will 
not do corporate-wide investigations when a national company 
such as Cintas has a record of ignoring worker safety.
    The bottom line is that when OSHA fails to act, American 
workers pay the price, often with their lives. So today, with 
the tragic deaths of Victor Diaz and Carlos Diaz, for the 
tragic consequences to their families, for the effect it's had 
on their friends and co-workers and for their communities, we 
are going to review what went on. We're going to learn some 
lessons, and possibly we can honor these fallen workers by 
preventing workplace injuries and deaths in the future.
    Thank you. And Ranking Member Wilson.
    [The statement of Ms. Woolsey follows:]

Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman, Subcommittee on 
                         Workforce Protections

    Good Afternoon.
    It is a pleasure to be in Linden today and I want to welcome all of 
our witnesses and attendees.
    In particular, I want to thank Representative Donald Payne for 
suggesting this hearing and for all of his great work on behalf of 
working people.
    I am delighted that Representative Wilson, the ranking member of 
the subcommittee is present today.
    And I also want to welcome Representatives Rob Andrews and Rush 
Holt, members of the full Education and Labor Committee, who are [or 
will be] joining us.
    While it is nice to visit the Garden State of New Jersey, I wish 
this hearing was not necessary, especially when these workplace deaths 
could have been avoided.
    On December 1, Victor Diaz and Carlos Diaz--employees of North East 
Linen Company--were killed as they were power-washing a 20,000-gallon 
dilution tank at an industrial laundry facility located here in Linden.
    They were working in a confined space but without the protective 
gear and precautions required by OSHA's confined space standard.
    There was no attendant present to ensure their safety and no 
harnesses to haul them to safety when they got in trouble.
    And so Victor and Carlos Diaz suffocated to death from exposure to 
toxic chemicals.
    Like many workers in this country, Victor and Carlos Diaz worked in 
the industrial laundry industry where employees are largely forgotten 
and the hazards of that industry go unnoticed.
    Yet these workers who clean the linens and uniforms for hospitals 
and other institutions face serious hazards: deadly chemicals, 
machinery that can kill and maim, carelessly discarded contaminated 
needles and painful back injuries.
    Unfortunately, what happened to Victor and Carlos Diaz was not an 
isolated incident in the laundry industry.
    For example, in March of last year, Eleazar [Al-a-zar] Torres-
Gomez, an employee at Cintas Corporation's industrial laundry facility 
in Tulsa, Oklahoma died after being caught in machinery and dragged 
into a dryer, where he was killed.
    Victor and Carlos Diaz were also working in a confined space, and 
deaths and injuries in these conditions are all too common as well.
    In fact, this was the third multi-worker confined space fatality in 
the U.S. in the last 4 months.
    More than 5,700 workers died in the workplace last year.
    This amounts to almost sixteen deaths every day.
    But this number doesn't even come close to accurately counting 
deaths resulting from work-related illnesses.
    In fact, the National Institute for Occupational Safety and Health 
estimates that between 50,000 to 60,000 workers die every year as a 
result of workplace illnesses.
    And the sad fact is that most of these deaths and illnesses could 
have been prevented had OSHA standards and other well-recognized safe 
working procedures been followed.
    The members of this subcommittee, and the full Education and Labor 
Committee chaired by Representative George Miller, have made worker 
health and safety one of our top priorities, and this hearing will 
supplement our ongoing investigations into why American workers today 
are not protected.
    Unfortunately, what we have established thus far is that the 
current Administration has failed to keep the promise to send workers 
home at the end of each day alive and in good health.
    Instead, OSHA has bowed to the requests of employers and has relied 
on companies' voluntary compliance, when it should have been enforcing 
the law and issuing new, protective standards to address new and old 
hazards.
    This Congress has been forced to move forward to compel OSHA and 
other agencies at the Department of Labor to live up to the 
responsibility given them under the law.
    So, Mr. Andrews and I have legislation pending to protect the 8.6 
million public employees who are currently without OSHA coverage.
    This legislation also raises civil penalties on employees and makes 
felony charges available against employers who commit willful 
violations.
    And the House is about to take up crucial mine legislation to force 
the Mine Safety and Health Administration to keep miners safe.
    Last fall, the House passed a bill I had introduced--the Popcorn 
Lung Workers Disease Prevention Act--that would require OSHA to develop 
standards to protect workers exposed to diacetyl [die-ass-a-teal].
    This legislation was necessary because popcorn and flavoring 
workers who work around the chemical are contracting ``popcorn lung''--
a irreversible and life-threatening respiratory disease--at an alarming 
rate, and OSHA has simply failed on a timely basis to protect them.
    In addition, and in response to the health and safety hazards at 
Cintas Corporation that have been killing and injuring its workers, we 
are examining why OSHA cannot or will not do corporate-wide 
investigations when a national company such as Cintas has a record of 
ignoring worker safety.
    The bottom line is that when OSHA fails to act, it is American 
workers who pay the price, often with their lives.
    This hearing will look at a tragedy that occurred in this City, 
taking the lives of two innocent workers, Victor and Carlos Diaz.
    And what I want to hear from all of our these heartbreaking events 
from happening.
    How do we ensure that OSHA fulfills its mission to protect workers 
from unsafe and unhealthful workplaces?
    The deaths of Victor Diaz and Carlos Diaz were a tragedy--for their 
families, for their friends and co-workers and for their communities.
    What we must do is learn from this tragedy so that we honor these 
fallen workers by preventing workplace injury and death in the future.
                                 ______
                                 
    Mr. Wilson. Good afternoon. Thank you, Madam Chairwoman 
Woolsey, and thank you, Mr. Payne, for hosting us in your 
congressional district today. At the outset, I would like to 
express my deepest sympathy and condolences to the families of 
Mr. Carlos Diaz and Mr. Victor Diaz, in the loss of their loved 
ones. I know that the Occupational Health and Safety 
Administration, OSHA, is investigating this accident to 
determine the cause. I am confident that the investigation will 
be thorough. Because there's an on-going investigation, this is 
a preliminary hearing and I look forward to a report on the 
completed investigation.
    While congressional oversight is important, without a 
completed investigation there is little factual evidence to 
determine what potential changes are needed to existing OSHA 
regulations. More broadly, safety regulations already address 
many of the concerns to be examined today. For example, there 
are regulations addressing confined space and lockout/tagout 
issues. Can these regulations be improved? What other 
regulations are at issue? Currently, there are no clear 
answers.
    While I believe more could be learned when the 
investigation is completed, I am hopeful that today's hearing 
takes full advantage of this opportunity by focusing clearly on 
workplace safety and the related laws and regulations.
    Today's testimony will demonstrate that no one is sitting 
idly by when it comes to safety. This field hearing will give 
us a unique perspective on what New Jersey is doing 
cooperatively with industry and labor to cement safety as a 
cornerstone of every working day. I look forward to the 
discussion.
    On a personal note, I am grateful to be in the home region 
of my daughter-in-law who is a proud native of North Jersey. I 
can report that the ties and friendships between the people of 
New Jersey and South Carolina are stronger every day. 
Additionally, I represent Hilton Head Island, South Carolina, 
where a huge number of energetic constituents are welcome 
transplants from New Jersey. And of course, you don't have to 
just, you don't need to relocate, just come and spend vacation 
at the shore and then the beach.
    Again, I want to thank my New Jersey colleagues and we've 
got three very fine persons here today. I want to thank them 
for providing this opportunity to visit the Garden State.
    [The statement of Mr. Wilson follows:]

   Prepared Statement of Hon. Joe Wilson, Ranking Republican Member, 
                 Subcommittee on Workforce Protections

    Good afternoon. Thank you, Mr. Payne for hosting us in your 
Congressional District today. At the outset, I would like to express my 
condolences to the families affected by the accident in Linden. I know 
that the Occupational Safety and Health Administration (OSHA) is 
investigating this accident to determine the cause and I am confident 
that the investigation will be thorough.
    Because there is an ongoing investigation, however, I am concerned 
that this hearing may be premature. While Congressional oversight is 
important, without a completed investigation there is little factual 
evidence to determine what potential changes are needed to existing 
OSHA regulations. More broadly, safety regulations already address many 
of the concerns to be examined today. For example, there are 
regulations addressing confined space and lockout/tagout issues. Can 
these regulations be improved? Are other regulations at issue? 
Currently, there are no clear answers. Might there be other goals or 
objectives, then, in holding this hearing? While I believe more could 
be learned when the investigation is complete, I am hopeful that 
today's hearing takes full advantage of this opportunity by focusing 
clearly on workplace safety and the related laws and regulations.
    Today's testimony will demonstrate that no one is sitting idly by 
when it comes to safety. This field hearing will give us a unique 
perspective on what New Jersey is doing to work cooperatively with 
industry and labor to cement safety as a cornerstone of every working 
day. I look forward to the discussion.
    Again, I thank my New Jersey colleagues for providing an 
opportunity to visit the Garden State.
                                 ______
                                 
    Chairwoman Woolsey. Thank you, Mr. Wilson. I think he's 
trying to say he wants you to bring your tax dollars down to 
South Carolina.
    Now I'm honored to yield time, as much time as he may 
consume to Congressman Donald Payne.
    Mr. Payne. Thank you. Thank you very much, Madam Chairwoman 
for taking the time to come from sunny California to the Garden 
State. Of course, we told the weather to cooperate with us. You 
know, we're supposed to have a foot of snow or a half a foot, 
whatever. And I am pleased that that did not happen. I think 
because you were coming, they gave us a little slack. So it's 
good to have you here and certainly commend you for the work 
that you've done on this Committee that you chair and the 
previous hearings that you had regarding this same issue shows 
that you're on top of the matter. Also, I commend you for your 
co-chairing of the Congressional Progressive Caucus in the 
United States Congress.
    Let me also thank my good friend Congressman Wilson. You're 
right, every day I'm getting someone sending me a farewell 
letter, saying they're moving to South Carolina, but up here in 
New Jersey, you know, you can still vote up here.
    Let me say that I appreciate your coming. We've traveled 
together to Iraq, actually, and I know your son is in the armed 
services that we had a chance to visit with when we went there 
and so we appreciate what you and your family are doing for our 
country. Of course, it's great to see my two colleagues, 
Congressman Rob Andrews, who as you know also chairs one of the 
labor subcommittees; and Rush Holt, who also is a Member of the 
Education and Labor Committee. So we're very pleased that we 
have such outstanding Congressmen who have decided that 
education and labor issues are so important to our country that 
they've elected to be on this very important Committee. So 
thank you both for coming. You didn't have to come as far as 
the others, but I'll thank you anyway.
    Let me say that I certainly want to welcome the other 
persons here, friends, and colleagues to this important hearing 
which will examine the circumstances surrounding the deaths of 
two workers at the North East Linen Laundry facility here in 
Linden, and workplace facilities, in general. As I mentioned, 
we've had a hearing on this same issue in Washington several 
months ago and so it's just timely that we are staying on this 
key issue. It makes no sense that in 2008 people are still 
dying from preventable circumstances. It must stop.
    It is also with a sense of sadness and anger that we hold 
this hearing today in my Congressional District. Let me be very 
clear about this. Victor Diaz and Carlos Diaz should be alive 
today. While OSHA has not yet issued a report, it is clear that 
they were not provided with the training or protection they 
needed, the training and protection that the laws require them 
to have before being sent to their deaths in that tank. While 
we don't know everything about this case yet, as it's been 
mentioned by Mr. Wilson, they're still investigating the case, 
we do know a few troubling things and we have a number of 
questions about this tragedy that I hope our witnesses will be 
able to answer here today.
    We know that North East Linen recently requested and was 
provided a free safety and health consultation from the State 
of New Jersey under a federally-funded consultation program. 
But the company inexplicitly limited this consultation to its 
hazard communications or chemical training program instead of 
asking the consultants to look at the entire operation. I want 
to know why companies are allowed to earn the public relations 
benefit of receiving a voluntary safety consultation without 
ensuring the entire operation is looked at.
    I also do not understand how this company could receive a 
passing grade on its hazardous communication program when 
clearly the chemical hazards of entering this tank were 
ignored. Had Victor and Carlos Diaz received this training? One 
article about this tragedy called it a freak accident. That 
sounds like it was out of the ordinary like no one could have 
predicted it. It was something that was totally unimaginable. 
But it is my understanding that the hazards of confined spaces 
where these workers were killed are well known. We talk about 
confined spaces all the time. There are regulations about 
confined spaces. So how could this be a freak accident when we 
know what should have been done. None of it was done. In fact, 
my staff informed me today that on January 14, 2008, is the 
fifteenth anniversary of the publication of OSHA's confined 
spaces standard. So it's not something new. Wasn't just around 
the corner. It was on January 14th, 15 years ago that these 
regulations were confirmed.
    Although we will have to wait a few more months for OSHA's 
final verdict, it certainly appears that this standard was 
grossly violated and Victor Diaz and Carlos Diaz paid the 
ultimate price because North East Linen apparently did not 
comply with the well-known OSHA standard. The deaths of Victor 
and Carlos were not the only tragedies to strike this city in 
my District or this State at the beginning of the holiday 
season. On December 7th, less than a week after the tragedy at 
North East Linen, two brothers, residents of Linden, window 
washers, Edgar Moreno, 30; and Alcides Moreno, 37; fell 47 
stories off a building on Manhattan's east side when their 
platform collapsed. They lived right here in Linden. Our staff 
talked to the family just in the last few days and invited them 
to come, but she's of course, attending the hospital every day. 
But it's miraculous that he's still alive. Forty-seven stories 
off a building. Edgar Moreno was killed, but miraculously, his 
brother, Alcides, survives and is still in the hospital, as I 
mentioned undergoing several surgeries.
    Elsewhere in New Jersey, more workers were dying. On 
December 3rd, a warehouse worker in Huntington County died 
after he struck his head twice in a fall near a loading dock. 
On December 5th, Arthur Crane, a 45-year-old lineman 
contracting for JBL Electric in Totowa was killed after falling 
60 feet off a tower. Five dead and one seriously injured in 
less than a week right here, practically in my District.
    Like Victor and Carlos, three of these other four victims 
were immigrants. The Moreno brothers were from Ecuador. The 
warehouse worker who died in Huntington County was from El 
Salvador. This is especially troubling because official 
statistics show that while the number of deaths among white 
workers have remained relatively stable over the past several 
years, the number of deaths among immigrant workers continue to 
climb and climb and climb. There are reasons for this in my 
opinion. First of all, in addition to language barriers, they 
do more dangerous work and they're often less willing to 
complain about recognized hazards. In fact, according to a 
family member, Edgar and Alcides Moreno, the ones who fell 
off--fell down 47 stories, knew their scaffold had a mechanical 
problem before they climbed the tower, but they were assured by 
a boss that it had been fixed. Unbelievable. Unbelievable.
    In all, December was not a good month for New Jersey 
workers. However, I am also proud of this State. New Jersey is 
one of the 24 States that provide federally-approved OSHA 
coverage for its public employees and one of only three States 
that runs its own public employee-only OSHA plans. We should be 
proud of that. We're proud of the Governor and his Department 
of Labor, and the Commissioner who we'll hear from in a few 
minutes.
    We lead the country with progressive, effective, chemical 
plant security regulations that encourage refineries and 
chemical plants to use inherently safer technologies and 
provide workers with significant input into chemical plant 
security programs.
    I look forward to the testimony of our witnesses today and 
I hope that we can move forward to ensure that we find a way to 
prevent any more of these tragedies. Let me thank you once 
again for calling this very important hearing.
    Chairwoman Woolsey. Thank you for encouraging it, 
Congressman.
    Now I have the privilege of introducing our distinguished 
panel of witnesses and in the order that they will be speaking. 
Eric Frumin is Director of the Health and Safety Program for 
UNITE HERE, which represents about 450,000 textile, laundry, 
and hospitality workers in the United States and Canada. Mr. 
Frumin has been with UNITE HERE since 1980. He also serves as 
the health and safety coordinator for Change to Win. Mr. Frumin 
has also advised trade unions and governments in Asia, Africa, 
and Central and South America, as well as the United Nations 
Commission on Sustainable Development. Mr. Frumin served as 
chair of the Labor Advisory Committee on OSHA Statistics to the 
U.S. Bureau of Labor Statistics from 1983 to 2003. He received 
his B.A. from the State University of New York in 1979 and his 
master's from New York University in 1981. I'm going to 
introduce all of the witnesses and then we're going to hear 
from them.
    David Socolow, welcome. It's nice to see your nice face, 
David. We've missed it around the Congress. David is the 
Commissioner of the New Jersey Department of Labor and 
Workforce Development. He was appointed Acting Commissioner on 
January 17, 2006 and confirmed by the New Jersey Senate on June 
30 of that same year. Before his appointment, Mr. Socolow had 
served as the Department's Director of Unemployment Insurance. 
He previously worked as a senior advisor to the Deputy 
Secretary at the U.S. Department of Labor and as Chief of Staff 
to our fellow Committee Member Rob Andrews of New Jersey. Mr. 
Socolow earned his bachelor's from Harvard University and his 
master's in public administration from Rutgers.
    Charles Wowkanech has been president of the New Jersey 
State AFL-CIO since January 5, 1997. Prior to that he served 
two terms as State Secretary-Treasurer and six years as 
Assistant to the President. He is second generation member of 
Local 68 of the Operating Engineers and was the youngest member 
ever named to the Local's Executive Board. Mr. Wowkanech also 
serves on the Department of Labor and Workforce Development's 
Advisory Council on Workers Compensation, Prevailing Wages and 
the Rutgers School of Management and Labor Relations State 
Advisory Council. He currently lives in Ocean City, New Jersey.
    James Stanley is president of FDRsafety, a position he has 
held since March 2004. He is here today representing the 
Uniform and Textile Service Association. Previous to 2004, he 
was vice president of Safety and Health for AK Steel and worked 
at the Occupational Health and Safety Administration for almost 
25 years. Mr. Stanley has also sat on the National Safety 
Council's Board of Directors and served as the National Safety 
Council's chairman of the trustees. He is a member of the 
Association of Iron and Steel Engineers and is chair of that 
organization's safety and health committee. Mr. Stanley earned 
his bachelor of science from Elizabethtown College.
    Rick Engler is director of the Work Environment Council of 
the State of New Jersey. He is the author of Action Steps for 
Chemical Safety and Hometown Security in New Jersey. Last 
November, Mr. Engler was honored by the National Council on 
Occupational Safety and Health for his role in developing 
public policy. Mr. Engler served as legislative and program 
director of the New Jersey Industrial Union, an AFL-CIO 
affiliate for 11 years. He is also founder of the Philadelphia-
Area Project on Occupational Safety and Health and served on 
then Governor-elect John Corzine's Environmental Policy 
Transition Committee. Mr. Engler received his B.A. from Antioch 
College.
    Now we need you to know that you need to talk into the 
microphones and you will each have five minutes. We won't bat 
you down right away, but finish your thoughts when you see that 
the five minute--yellow will say you've got a minute left and 
then red will say time to quit. And then there will be time for 
questions and answers for you to I believe finish thoughts if 
we haven't gotten to all of your thoughts. So we will begin 
with and we're delighted to have Mr. Frumin.

  STATEMENT OF ERIC FRUMIN, DIRECTOR, OCCUPATIONAL SAFETY AND 
                   HEALTH PROGRAM, UNITE HERE

    Mr. Frumin. Thank you very much, Chairwoman Woolsey, Mr. 
Payne, other Members of the Committee.
    UNITE HERE greatly appreciates the opportunity to testify 
about the terrible tragedy at the North East Linen that killed 
Victor Diaz and Carlos Diaz on December 1st and also appreciate 
your interest in holding this hearing to bring the facts to the 
public's attention.
    For too long, when dangerous conditions and bad management 
result in workers' deaths, the workers die alone. Few people 
pay any attention other than their families, their co-workers 
and the crew on the ambulance or in the emergency room.
    The situation at North East Linen was different, at least 
because some people in the news media paid a lot of attention 
for a few days. And because you are here today to focus your 
own attention on these events.
    But that does not make this tragedy any easier for the 
families of Victor and Carlos Diaz, no matter how much 
attention anyone pays today or tomorrow. They are gone. Ripped 
from their families in a sudden and brutal moment.
    We do not know exactly how this brutality came about. We do 
not know who at North East Linen gave an order for Victor or 
Carlos to go into that tank. We do not know who among the 
managers told them anything, or nothing at all, about the 
extreme dangers from entering tanks like the one at the laundry 
in Linden.
    We don't know whether anyone in a position of authority at 
North East Linen took any of the strict measures which OSHA 
requires to protect people assigned to jobs inside these tanks. 
But we do know something about the laundry industry. We know 
enough about this industry to believe that managers in this 
industry are keenly aware of the dangers of so-called confined 
spaces like water tanks.
    We have laundry workers who are here with us today. Every 
day, workers like these confront equipment that is considered 
confined spaces: huge washers, especially huge dryers.
    Equally indeed at North East Linen's sister plant in New 
Haven, Connecticut, called New England Linen and both run by 
the same president, John Ryan, workers filed a complaint with 
OSHA's Bridgeport office in January 2006. OSHA's inspectors 
found dozens of violations and cited the company for violating 
the standard on confined spaces.
    In addition to the confined space violation, OSHA also 
found other potentially life-threatening violations, some of 
which were considered bad enough to cause death or serious 
physical harm with total penalties amounting to $25,000. So it 
should have been clear to the owners and managers at New 
England Linen, the same ones who run the New Haven plant, that 
OSHA rules are serious obligations for employers. More 
important, it should have been crystal clear to the owners and 
managers that the OSHA standard on confined spaces was 
important. In New Haven, OSHA required the company to do the 
kind of survey which had they done here in Linden, might have 
saved the lives, would have saved the lives of Victor and 
Carlos Diaz.
    So what's the lesson here? From our experience, as Mr. 
Payne has always said, this is not a freak accident. The hazard 
from confined spaces is so well understood in this industry and 
generally. It's no surprise that these conditions would kill 
people. It was really more just a matter of time. In my 
opinion, it was no accident at all.
    What we have learned from the news reports is these deaths 
were preventable. They would be alive today. What do the 
standards require? It's a long list to save time. I'll skip it. 
But they are very important protections for people. Mr. Socolaw 
can tell us more.
    These are the requirements of the law of our land. This is 
the OSHA Act. It says that Congress shall set standards. It 
says the Secretary of Labor shall set standards. It says the 
Secretary shall enforce them, that employers will comply with 
those standards.
    They put the requirements on the employer, not just on the 
Government, on the employer. Not just on workers, on the 
employer. And instead of receiving the protection from the 
managers that the law requires, the workers didn't get that 
protection. All they got was some plastic wrapped around their 
legs.
    So at times like this, as painful as it is, workers want to 
ask themselves whose fault was it? Should they have trusted 
their managers? Too often workers trust their managers. They 
think it was their fault, that they did something wrong. Not 
so.
    Workers don't feel free to complain as Mr. Payne has said. 
Employers like it that way, many of them, unfortunately. No 
trouble makers. No one complaining. Our experience is workers 
need to be able to speak out and to really speak out they need 
to have a union. Workers here do not have a union. With a 
union, they can find out how to protect themselves. They can 
find out--they can know what it means not to be a troublemaker, 
but to be a responsible worker. And until workers have unions 
and are free to speak out, they need a strong OSHA with enough 
resources to do the right thing to protect workers, not just in 
this industry, but in all industry, armed with the strongest 
standards we can design.
    On behalf of the 150,000 workers in this industry, in the 
laundry industry, we again thank the subcommittee for holding 
this hearing, for recognizing the importance of supporting 
workers who speak up, who protest dangerous conditions. We urge 
you to take immediate action to get OSHA the tools and 
resources it needs.
    I'll be happy to answer any questions. Thank you for the 
time.
    [The statement of Mr. Frumin follows:]

Prepared Statement of Eric Frumin, Director of Occupational Safety and 
                           Health, UNITE HERE

    Mme. Chairwoman, Mr. Payne, other members of the Committee: UNITE 
HERE greatly appreciates the opportunity to testify about the terrible 
tragedy at the North East Linen Co. that killed Victor Diaz and Carlos 
Diaz on December 1, 2007. We also appreciate your interest in holding 
this hearing to bring the facts to the public's attention.
    For too long, when dangerous conditions and bad management result 
in workers' deaths, the workers die alone. Few people pay any attention 
other than their families, their co-workers and the crew on the 
ambulance or in the emergency room.
    The situation at North East Linen was different, at least because 
some people in the news media paid a lot of attention for a few days. 
And because you are here today focusing your own attention on these 
events.
    But that does not make this tragedy any less terrible for the 
families of Victor Diaz and Carlos Diaz. No matter how much attention 
anyone pays today and tomorrow, they are gone--ripped from their 
families in a sudden, brutal moment.
    We do not know exactly how this brutality came about.
    We do not know who at North East Linen gave an order for Victor or 
Carlos to go into the tank.
    We do not know who among the managers told them anything, or 
nothing at all, about the extreme dangers from entering tanks like the 
one at the laundry in Linden.
    We do not know whether anyone in a position of authority at North 
East Linen took any of the strict measures which OSHA requires to 
protect people assigned to jobs inside tanks.
    But we do know something about the laundry industry.
    We know enough about this industry to believe that managers in this 
industry are keenly aware of the dangers of so-called ``confined 
spaces''--like water tanks.
    We have laundry workers here with us today. Every day, workers like 
them confront equipment that is considered confined spaces: huge 
washers, and equally huge dryers.
    Indeed, at North East Linen's sister plant in New Haven, CT--called 
New England Linen and both run by President John Ryan--workers filed a 
complaint with OSHA's Bridgeport office in January, 2006. OSHA's 
inspectors found dozens of violations, and cited the company for 
violation of the standard on confined spaces.
    In addition to the confined space violation, OSHA also found 
potentially life-threatening violations of OSHA's standards on safe 
equipment maintenance, machine guarding, and chemical hazard 
training.\1\
---------------------------------------------------------------------------
    \1\ Other ``serious'' violations in New Haven included fire and 
electrical hazards, storage of flammable or combustible liquids, and 
employee training. See OSHA inspections #123161820 and 309375582.
---------------------------------------------------------------------------
    OSHA considered those hazards bad enough to cause ``death or 
serious physical harm.'' Total penalties amounted initially to nearly 
$25,000.
    So it should have been crystal clear to the owners and managers of 
New England Linen--the same owners who run North East Linen--that OSHA 
rules are serious obligations for employers.
    More important, it should have been crystal clear to the owners and 
managers that OSHA's standard on confined spaces was important. In New 
Haven, OSHA required the company to do the kind of survey of possible 
confined space hazards that trigger all the protective requirements 
that would have saved the lives of Victor Diaz and Carlos Diaz.
    What's the lesson here? Based on our years of experience in this 
industry, we believe that this was not just a so-called ``freak 
accident.''
    The hazard from confined spaces is so well-understood and 
predictable that it was no surprise that these conditions would kill 
these workers--it was only a matter of time before the dangers killed 
them.
    So in my opinion, this was no accident at all. From what we have 
learned from the news reports, these deaths were completely 
preventable. Victor Diaz and Carlos Diaz would probably be alive if the 
company had complied with the law and given these workers all the 
protections that OSHA's standard requires:\2\
---------------------------------------------------------------------------
    \2\ OSHA Standard: 29 CFR 1910.146
---------------------------------------------------------------------------
    The standards require:
    <bullet> A careful survey of the workplace to determine where these 
hazards are lurking--the very survey that OSHA required from New 
England Linen after the workers complained there in 2006.
    <bullet> A strict permitting system to prevent anyone from even 
starting a tank entry without a complete set of protective measures.
    <bullet> Careful tests on the air inside the tank, and proper 
ventilation to make sure that enough clean air was present.
    <bullet> Strict rescue procedures, including full body harnesses 
and lifelines, as well as proper standby hoist equipment and fully-
trained stand-by rescue personnel who know how to use it.
    <bullet> Full necessary protective equipment and communication 
equipment
    <bullet> Proper breathing apparatus in case of problems with the 
available air supply.
    Compliance with these standards would have assured that Victor Diaz 
could do this job safely, and that Carlos Diaz or anyone else helping 
him would know exactly how to rescue him in case of a problem.
    These are the requirements that the law of our land clearly imposes 
on the company--not on the workers, or the government, but squarely on 
the shoulders of the managers of plants like North East Linen.
    Sadly, according to press reports, instead of receiving the 
protection from their managers that these detailed rules require, the 
only so-called ``protection'' they had was plastic wrapped around their 
legs.
    At times like this, as painful as it is, some people will speculate 
about whose fault this is.
    Many workers want to trust in their managers to protect them.
    And when workers suffer injuries--or even death--because they do 
not receive the legal minimum protection, workers sometimes ask whether 
the workers themselves were at fault.
    Despite tragedies like this, many workers will continue to trust 
their employers to protect them. They are especially vulnerable, 
because they trust the wrong people.
    They are vulnerable because they simply don't know how dangerous 
the work really is.
    And worst of all, many workers who know about the dangers believe 
they have no choice but to accept these hazardous assignments.
    And many managers like it that way. No problems from troublemakers.
    But the experience here in Linden proves one more time that dangers 
on the job are is too important and widespread to leave it up to 
individual workers to object, or to complain to OSHA.
    Because despite what many of us want to believe, employers who 
should be responsible are not responsible, and we can't trust them to 
protect us.
    That's why these workers need a union--OSHA's not enough.
    Union members can find out how to deal with these kinds of 
employers--and get the support they need to protect themselves.
    But at the same time, we also know that until every worker has a 
voice, until every worker is free to be a ``troublemaker,'' we know 
that the only protection they have is a strong and vigilant OSHA.
    An OSHA armed with plenty of resources, and the strongest standards 
we can design.
    Standards like the one on confined spaces that would have protected 
the lives of workers here in Linden, if only their managers had done 
the right thing.
    On behalf of the 150,000 workers in the laundry industry, we again 
thank the subcommittee for holding this hearing, and for recognizing 
the importance of supporting workers who speak up, who protest 
dangerous conditions.
    We urge the subcommittee to take immediate action to help OSHA get 
the tools and resources it needs to protect workers. I will be happy to 
answer any questions you have.
                                 ______
                                 
    Chairwoman Woolsey. Thank you. We're going to go through 
the whole witness panel and then we will ask questions in order 
up here.
    Okay, David Socolow.

STATEMENT OF DAVID SOCOLOW, COMMISSIONER, NEW JERSEY DEPARTMENT 
               OF LABOR AND WORKFORCE DEVELOPMENT

    Mr. Socolow. Chairwoman Woolsey, thank you very much for 
the opportunity. Thank you for holding this vitally important 
hearing in New Jersey; Congressman Payne, Ranking Member 
Wilson, other distinguished Members of the Panel. I'm delighted 
you're here and a special warm welcome from Governor Corzine to 
you, Ms. Woolsey, and to you, Mr. Wilson, to our Garden State, 
along with our profound thanks for your leadership and 
dedication to the life and health of America's workers.
    Governor Corzine has established promotion of workplace 
safety as a top priority for state government and we subscribe 
to the comment as made earlier in this hearing that every 
worker and his or her family has the right to expect to arrive 
home at the end of the day safe and whole after that day's 
work. And we do have a long history in New Jersey as a pioneer 
in improving worker safety and health. I will only summarize 
it, but I will remind the Committee that, in fact, in 1965 
before OSHA's inception, New Jersey enacted a comprehensive 
State Worker and Safety Health Act which really was the pattern 
for the federal OSHA Act led by our Senator Harrison Williams 
in 1970. And in 1983, as Congressman Payne mentioned, our State 
established safety and health protections for New Jersey's more 
than half a million public employees. In 2001, our State PEOSHA 
program, Public Employee OSHA program was recognized by federal 
OSHA as one of only three certified public-sector only state 
plans in the nation. So we're doing a lot to try to protect 
workers.
    The other two major things that we do that I want to 
briefly touch on are safety and health training initiatives. We 
provide significant state-funded support to train workers in 
occupational safety and health curricula. We've committed 
millions of dollars of New Jersey State funds to provide 
comprehensive safety and health training, to assist employers 
to protect their workers and to emphasize the importance of 
robust worker involvement in workplace safety and to 
demonstrate to employers the value of well-trained workers and 
safety worksites. I know that President Wowkanech will touch on 
one of this initiatives. New Jersey sponsors the highly 
effective Occupational Safety and Health Education Project 
which is a partnership between our department and the New 
Jersey State AFL-CIO that targets high hazard industries, 
teaches occupational safety and health curricula to worker 
trainers so that they can then act as force multipliers and go 
out and train their fellow workers in the skills they have 
learned.
    Again, we believe that this involvement, when managers 
directly and meaningfully involve unions and the workers that 
they represent in the development of comprehensive safety and 
health programs, that that significantly improves workplace 
safety.
    And the other major thing that our department is involved 
in is the safety and health consultation service which is a 
service offered to employers free of charge and we encourage 
every employer in the Garden State to take advantage of this 
service so that they may understand the importance of safe and 
healthy workplaces, receive assessments of their working 
conditions, hazards, and potential hazards of their workplace 
and worksites, and obtain training to help ensure that workers 
know how to reduce the risks of particular jobs that inherently 
pose hazards to the safety and health. I know that we'll get 
into some questions about that consultation program, but we 
believe it does serve a valuable role.
    But as the recent tragic events here in Linden and 
elsewhere as Congressman Payne so heartbrokenly laid out for 
us, we've had some real tragic deaths in workplace locations 
that are inherently hazardous. Our thoughts and prayers go out 
to the Diaz families and to the families of all the other 
workers who have had this kind of terrible event in their 
lives.
    We believe that the confined spaces standard that Mr. 
Frumin just touched on is a vital component of a safety program 
to protect employees who work in a space such as a tank, a 
storage bin, a silo that is large enough for an employee to 
enter and work which has restricted means of entry and which is 
not designed for continuous occupancy.
    Let me just emphasize one aspect of that confined space 
standard with the time I have left. Again, it requires for 
permit-required confined space settings, effective 
communication and consultation with the affected employees and 
their authorized representatives on the development and 
implementation of all aspects of the permit-required confined 
space program. It requires as already has been said an in-house 
rescue team, or arranging for an outside rescue service. It 
requires a number of specific things which are laid out in my 
full-written testimony and the specific confined space training 
is recommended as part of the comprehensive 30-hour OSHA 
training course. Any business where confined space entry is 
even an issue ought to be training its workers on the OSHA 30-
hour training course and as I said, our state government, 
together with our partners, plays a role in getting that vital 
training out so that employers need only ask and we'll provide 
that training.
    However, while our state government can provide and sponsor 
training and consultation, we need robust enforcement from 
federal OSHA. And we also need development, continuous 
development of new occupational safety and health standards 
that reflect up-to-date knowledge of workplace standards. 
Unfortunately, under the Bush Administration federal OSHA has 
focused their attention on voluntary partnerships and alliances 
with unproven effectiveness. And also has completely stopped 
issuing new or improved health and safety standards during the 
past seven years. So I hope that this hearing will bring 
greater attention to those issues and I thank the Members of 
the subcommittee for taking the lead in protecting workers.
    Thank you very much.
    [The statement of Mr. Socolow follows:]

   Prepared Statement of David J. Socolow, Commissioner, New Jersey 
             Department of Labor and Workforce Development

State initiatives for safer workplaces
    Chairwoman Woolsey, Congressman Payne, Members of the subcommittee, 
thank you for holding this vitally important hearing in New Jersey. I 
am David Socolow, Commissioner of the New Jersey Department of Labor 
and Workforce Development. I join Governor Jon S. Corzine in offering a 
warm welcome to you, Madame Chairwoman, as you visit the Garden State, 
along with our profound thanks for your leadership and dedication to 
the lives and health of America's workers. I appreciate this 
opportunity to discuss what our state is doing to protect workers 
through safer and healthier jobsites.
    Governor Corzine has established the promotion of workplace safety 
as a top priority for state government. Every worker and his or her 
family has the right to expect when he or she arrives at work each day 
that he or she will be able to return home safe and whole at the end of 
a day's work. We strive for this goal each day, reflecting a commitment 
to occupational health and safety in New Jersey going back for more 
than a century.
New Jersey's historic commitment to safer workplaces
    Governor Corzine is building on New Jersey's long history as a 
pioneer in improving worker safety and health. We are proud of the 
efforts of labor, business and government in the Garden State to foster 
a culture of safety. Our state has been a leader in protecting our 
greatest assets, the working men and women of New Jersey, and 
communicating this commonsense value to an expanding number of our 
state's employers.
    As far back as 1904, New Jersey's Factory Act sought to guard the 
safety of industrial workers and to ``surround the workman with more 
protection than the common law gave him.'' Established in 1920, the New 
Jersey State Industrial Safety Committee remains active today, 
promoting cooperative approaches between management and labor to 
eliminate workplace accidents and injuries. The New Jersey State 
Industrial Safety Committee is the longest-running organization of its 
kind in our nation; it provides our state government with valuable 
advice and insight on issues of workplace health and safety today, as 
it has for state Labor Commissioners throughout more than eight 
decades.
    In partnership with the Industrial Safety Committee, we sponsor 
annual awards to recognize the cooperative efforts of exemplary New 
Jersey businesses and their workers to maintain jobsites free of lost-
time accidents, some with zero-incident records that have stretched for 
more than a decade. From the past 80 years of New Jersey's Governor's 
Annual Occupational Safety and Health Awards Program, we've seen that 
when a jobsite logs millions of consecutive hours without a single 
lost-work-time incident, it's not simply good luck--such an achievement 
reflects a true culture of safety with buy-in from management and real 
involvement by workers and their representatives.
    New Jersey's path-breaking commitment to workplace safety and 
health was also an inspiration for the federal Occupational Safety and 
Health Act. In 1965, before OSHA's inception, New Jersey enacted a 
comprehensive state Worker Safety and Health Act, which provided that 
``every employer shall furnish a place of employment which shall be 
reasonably safe and healthful for employees.'' In the late 1960s, U.S. 
Senator Harrison Williams of New Jersey took this concept to the halls 
of Congress, sponsoring workplace health and safety legislation to 
protect workers on the job. The Williams-Steiger Occupational Safety 
and Health Act of 1970, largely based on the 1965 New Jersey law, 
created today's OSHA to assure the health and safety of workers across 
America.
    While the federal Occupational Safety and Health Act preempted 
state enforcement of New Jersey's earlier law, since the early 1970s, 
our state government has worked in close partnership with the federal 
OSHA agency to help protect workers. And while New Jersey's state 
government does not have jurisdiction for occupational safety and 
health enforcement in private sector workplaces, we continue to work 
with OSHA and the unions and businesses of the Garden State to educate, 
train and build stronger and coordinated labor-management approaches to 
making workplaces healthy and safe. In 1983, our state established 
safety and health protections for New Jersey's more than 500,000 public 
employees--and in 2001, our state PEOSHA program was recognized by 
federal OSHA as one of only three certified public-sector-only state 
plans in the nation.
    The latest data show that New Jersey's private sector continues to 
have some of the safest worksites in the nation. Our most recent 
accident and illness rate, at 3.6 incidents per 100 full-time workers, 
remains well below the national average of 4.4. Any workplace injury is 
devastating to the worker and his loved ones--but we believe that we 
can continue to reduce the number and severity of these terrible 
events, save workers' lives and protect their health, by continuing our 
focused efforts to foster a culture of safety.
Occupational safety and health training initiatives
    New Jersey provides significant state support to train workers in 
occupational safety and health curricula. We have committed millions of 
dollars of New Jersey state funds to provide comprehensive safety and 
health training to assist employers to protect their workers, to 
emphasize the importance of robust worker involvement in workplace 
safety, and to demonstrate to employers the value of well-trained 
workers and safer worksites.
    In 1992, New Jersey enacted the Workforce Development Partnership 
(WDP) Act to provide a dedicated state funding source for job training, 
including incumbent worker training. Three percent of the money raised 
through the dedicated WDP payroll tax is allocated to support 
occupational safety and health training, and today, the state invests 
nearly $1.5 million annually in WDP funding to bring training about 
safety and health protections to the workers who need it most. These 
state funds help provide a range of training and educational programs 
that reach workplaces across our state, providing thousands of workers 
with training that could make the difference between working safely or 
risking injury or death.
    New Jersey's WDP program sponsors the highly-effective Occupational 
Safety and Health Education Project (OSHEP), a vital partnership 
between the New Jersey Department of Labor and Workforce Development 
and the State AFL-CIO. Targeting high-hazard industries, OSHEP provides 
health and safety training programs, including the OSHA 10-Hour General 
Industry Training Course and other customized occupational safety 
training, to workers at jobsites across the state. OSHEP expands its 
reach by teaching occupational safety and health curricula to worker-
trainers who act as force-multipliers, by then training their fellow 
workers in the skills they have learned.
    OSHEP has also developed and delivered truly critical and timely 
Security Awareness and Preparedness courses for workers in New Jersey's 
chemical and petroleum sector, pharmaceutical companies, water 
treatment facilities and hospitals. This training has helped to raise 
worker awareness and knowledge about maintaining security at these 
vital facilities. This innovative curriculum explicitly draws parallels 
among the systems required to promote worker safety, to prevent 
accidents, and to guard against deliberate terrorist attacks in high-
hazard sites. More than 150 facilities have taken part in the training, 
with thousands of workers trained to improve security at their 
facilities.
State OSHA consultation service
    New Jersey's continuing partnership with federal OSHA enables the 
state Department of Labor and Workforce Development to provide 
important knowledge, training and assessments to employers and their 
employees through our Safety and Health Consultation Service. This 
service is offered to employers free of charge, and last year, New 
Jersey's Safety and Health Consultation Service provided services to 
nearly 500 public and private sector employers and their 38,000 
workers. I encourage every employer in the Garden State to take 
advantage of the service so that they may:
    <bullet> Understand the importance of safe and healthy workplaces, 
both for their employees' lives and well-being, and for efficiency and 
productivity;
    <bullet> Receive assessments of the working conditions, hazards and 
potential hazards in their particular workplace or sites; and
    <bullet> Obtain training to help ensure that workers know how to 
reduce the risks of particular jobs that inherently pose hazards to 
their safety and health.
    Our approach in these consultations encourages the development of 
robust labor-management safety and health committees to maintain a 
consistent focus on these important issues and the involvement of both 
workers and management in keeping safety a priority. When managers 
directly and meaningfully involve workers and their union 
representatives, they can significantly improve workplace safety.
    With each interaction between our consultation service and New 
Jersey employers and workers, we strengthen our statewide commitment to 
safer workplaces. By enhancing workers' knowledge and ability to 
recognize hazards, and by helping employers to recognize the value of 
communication in reducing hazards, we foster workplaces where labor and 
management cooperate to correct dangerous situations and to implement 
policies and procedures for safe work practices.
OSHA's confined-space standards
    As the recent tragic events here in Linden have reminded us, some 
workplace locations are particularly hazardous. We were heartbroken to 
learn of the deaths of two industrial laundry workers last month who 
were assigned to clean a chemical storage tank, and our thoughts and 
prayers go out to the Diaz families. This senseless tragedy underscores 
how important it is for employers to comply with the OSHA standards for 
working safely in confined spaces.
    Based on our Department's experience, these standards are a vital 
component of a safety program at a business with employees working in 
confined spaces. Confined-space entry standards are designed to protect 
employees working in a space such as a tank, storage bin or silo that 
is large enough for an employee to enter and work; which has restricted 
means of entry; and which is not designed for continuous occupancy.
    The OSHA standards also differentiate higher-hazard, or permit-
required, confined spaces. These are confined spaces with recognized 
serious safety or health hazards including the potential to contain a 
hazardous atmosphere or a material that could engulf anyone entering 
the space. These spaces also include those configured in such a way 
that an entrant could be trapped or asphyxiated by a downward sloping 
floor tapering to a smaller cross-section or by walls that converge 
inward.
    One of the most crucial steps to ensuring worker safety involves 
determining if the worksite includes confined spaces and permit-
required confined spaces. Effective communication is also a key element 
in this process and an employer must consult with the affected 
employees and their authorized representatives on the development and 
implementation of all aspects of the permit-required, confined-space 
program.
    If the job site has permit-required confined spaces and if the 
employer decides that its employees will enter these spaces, the 
employer must develop and implement a proper written confined-space 
program and prepare an entry permit.
    The employer also needs to clearly establish the duties of all 
authorized entrants, attendants, and supervisors. It is critical, too, 
that an employer provides comprehensive training so that employees 
working in confined spaces acquire the understanding, knowledge, and 
skills necessary for the safe performance of their duties.
    Finally, an employer whose employees work in confined spaces must 
designate an in-house rescue team, or must arrange for an outside 
rescue service that can respond to a rescue summons in a timely manner. 
This approach, with its well-defined policy and worker training, is 
vital to providing consistent protection for workers when they are 
required to work in confined spaces.
    Many of the businesses in New Jersey do not have workers involved 
in confined-space entry. However, the specific confined space training, 
particularly for permit-required entry, is recommended as part of the 
comprehensive 30-hour OSHA training course, and it certainly must be 
presented to businesses where confined-space entry is an issue. It is 
vital that all employers with workers engaging in confined-space entry 
commit to providing this specific training to their employees, in 
addition to other occupational safety and health course components.
Conclusion
    The dedicated staff at the New Jersey Department of Labor and 
Workforce Development will continue to work with our many partners to 
maintain and build upon our existing culture of safety in New Jersey's 
workplaces. However, while our state government can provide and sponsor 
crucial training and consultation to employers and workers, as I noted 
earlier, the state of New Jersey does not have jurisdiction over 
occupational safety and health enforcement in the private sector. 
Robust enforcement by federal OSHA, and development of new national 
occupational health and safety standards reflecting up-to-date 
knowledge of workplace hazards, are the bedrock foundation on which our 
state programs depend. Yet under the Bush Administration, federal OSHA 
has focused attention on voluntary partnerships and alliances with 
unproven effectiveness, at the expense of vigorous and meaningful 
enforcement that actually changes employer behavior. OSHA has also 
almost completely stopped issuing new or improved safety and health 
standards during the past seven years.
    I hope this hearing in New Jersey today will bring greater 
attention to this urgent priority--a matter of life and death for 
countless workers--and I urge the members of this subcommittee to take 
the lead in Congress in promoting stronger OSHA enforcement.
    Thank you again for this opportunity to appear before you. I will 
be pleased to answer questions you may have.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Charles Wowkanech.

  STATEMENT OF CHARLES WOWKANECH, PRESIDENT OF THE NEW JERSEY 
                         STATE AFL-CIO

    Mr. Wowkanech. Good afternoon, Madam Chairwoman Woolsey, 
Members of the subcommittee. I, too, would like to join my 
colleagues and welcome you all to New Jersey.
    As Congressman Payne had indicated in the month of 
December, there were five fatalities here in our State alone. 
Two of these happened at the North East Linen plant in Linden 
when Victor Diaz and Carlos Diaz were asked by their employer 
to perform job functions that they were not trained or 
evaluated for.
    I believe that it is crucial to the success of this 
subcommittee's mission to speak to the workplace safety and 
health solutions that are practiced and promoted by labor 
unions and advocates of proactive workplace safety and health 
solutions that receive little attention from most employers 
simply because they are not required by any rule of law.
    Educating rank-and-file union members ensures that we 
support OSHA in protecting our State's workforce from harm and 
we empower these workers to be active participants in 
developing workplace policies. It's no great secret that labor 
unions have played a key role in empowerment and that a 
unionized workforce is a safer, smarter, stronger workforce.
    Sixty-three percent of a poll that was taken by the 
Employment Law Alliance said the top reason to join organized 
labor is to have workplace safety at the workplace. More than 
40 percent of those polls believe that unions have a 
substantial impact on improving the working conditions of an 
average American worker. This is the solution that I'm talking 
about here today as the Commissioner alluded to.
    One of the hallmarks of our health and safety project here 
in New Jersey is the fact that we have a Joint Labor and 
Management Committee through our state university, Rutgers, 
where we bring middle management, top management of companies 
along with workers, along with federal OSHA, along with many 
other agencies to discuss how we can make this program better.
    We have trained hundreds of workers in confined spaces, 
lockout, markout, those kind of things we do routinely. We have 
been working closely with unions that represent commercial 
laundry workers to provide customized training to their 
employees at laundry facilities. And we have seen the 
difference that this makes.
    There has been a 40 percent reduction based on the Bureau 
of Labor Statistics, a 40 percent reduction in injuries and a 
20 percent increase in production when Joint Labor and 
Management Safety Committees are formed. So it is sort of 
beyond me that if these statistics justify that not only are we 
going to have less loss of time, less fatalities and a higher 
productivity, it's beside me why these companies won't sign on 
to this kind of policy.
    Besides direct savings in compensation costs, companies 
that implement these labor-management cooperative programs see 
an increase in worker productivity and moral as well as a 
decrease in equipment and process breakdown and failures. We 
have seen the positive impact of Joint Labor-Management 
Committees in other industries. Now is the time to make these 
committees the standard in the commercial laundry industry.
    Today, I challenge the North East Linen Company to empower 
and educate its workforce by establishing a Joint Labor-
Management Committee and utilizing the free resources provided 
by the State's Occupational Safety and Health Education 
Program, OSHEP, led by Rutgers University. I appreciate and 
applaud the commitment of this subcommittee to investigate 
these workplace tragedies and respectfully request that this 
subcommittee in its findings require the establishment of a 
Joint Labor-Management Committee at the North East Linen and 
require that the company offer safety and health training to 
all its employees through the services offered by the state-
funded and approved training program.
    There will be no greater tribute to Victor Diaz and Carlos 
Diaz than establishing a Joint Labor-Management Committee and 
educating employees at the North East Linen Company to 
implement safer working practices.
    Thank you.
    [The statement of Mr. Wowkanech follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairwoman Woolsey. Mr. Stanley.

      STATEMENT OF JAMES W. STANLEY, PRESIDENT, FDRsafety

    Mr. Stanley. Good afternoon, Chairwoman Woolsey, Ranking 
Minority Member Wilson, Members of the subcommittee, and all 
assembled. I'm Jim Stanley and I am pleased to appear before 
you today on behalf of the Uniform and Textile Service 
Association or UTSA which I am guiding as a safety advisory 
group member. I was an OSHA employee for 25 years, including 
serving as the Deputy Assistant Secretary of Labor in 
Washington for OSHA.
    UTSA represents 44 member companies, all across the United 
States and Canada who provide uniforms and textile service 
products to a wide variety of businesses. The Association's 
membership represents just a portion of the 1200 or so similar 
companies in the U.S. Most importantly, before I begin, I would 
like to express my and the Association's deepest sympathies and 
condolences to the Diaz families. Tragedy at the North East 
Linen plant here in Linden has been a devastating loss to them 
and their friends and colleagues. The accident has had a major 
impact on the entire industry. No words can properly express 
the deep sadness and sympathy we all feel.
    As UTSA's representative, my role today is to offer my 
opinions on OSHA and safety issues based on my experience in 
the safety field, as well as my 25 years with OSHA. 
Accordingly, I'm not in a position to speak for North East 
Linen nor am I able to comment on the practices of individual 
UTSA member companies. However, I and the Association believe 
that every company has a duty to its employees to ensure a safe 
and healthful workplace.
    All agree that safety should be a top priority. But in 
UTSA's view, safety should be more than a priority. Priorities 
do change. It should be a core value, a value integrated into 
the business operations of all Association members.
    I think this sentiment is echoed through UTSA, regardless 
of the size of our members. This is certainly a message that 
the Association has conveyed for many years and we will 
continue our drive to improve safety and health efforts with 
increased intensity in the coming months and years.
    I recently partnered with UTSA to enhance the industry's 
safety program and drive for continuous improvement. 
Historically, the safety record of the Association's member 
companies has been good and with about 140,000 workers there 
have been a few--there have been a few plant fatalities in the 
industry over the past decade, yet the Association recognizes 
that additional steps must be taken to assure the proper 
commitment, systems, and practices are in place at every 
facility so that every worker is properly protected. We are 
taking numerous steps that are proactive and substantive and we 
are confident we'll make a marked improvement in our industry's 
injury and illness performance. Indeed, UTSA's over-reaching 
safety goal is zero injuries and illnesses, and of course, zero 
fatalities every single day.
    Additionally, UTSA's board is driving the future of UTSA's 
safety program. To that end, the Association has assembled an 
advisory group of outside safety and health experts to guide 
the Association as it puts its comprehensive workplace safety 
plan in action.
    I am proud to serve on this group, along with my esteemed 
colleagues, Mr. Wayne Punch, Safety and Health Director of 
Milliken; and Mr. John Henshaw, a former OSHA Assistant 
Secretary of Labor. I can safely say that all three of us would 
not participate if we didn't believe the industry is serious 
about making measurable improvements.
    UTSA is taking swift action to implement its plan for 
improvement. I took part in a meeting two weeks ago with the 
UTSA's President and staff in which we outlined a comprehensive 
voluntary safety plan that goes above and beyond OSHA rules and 
regulations. UTSA's plan will make a difference across the 
industry and simply stated, its goal is to significantly reduce 
the number of injuries and illnesses. The plan will include 
goal setting, best practices, sharing, training, performance 
tracking, third party audits, and industry-specific on-site 
training, safety tools and programs.
    Another action that the Association is taking is 
establishing an Association-wide baseline numbers related to 
workplace illnesses and injuries. This is especially 
significant since BLS currently combines dry cleaning 
businesses and possibly others with our industry's illness and 
injury data. We believe this doesn't currently accurately 
reflect the uniform and textile service industry performance. 
Once assembled, this data will be shared with OSHA.
    Perhaps the most important aspect of the plan will be the 
integration of the OSHA Challenge Program into our efforts. Our 
goal is to assist every member company, improving workplace 
safety and health programs and to prepare each to qualify to 
participate in OSHA's VPP Program.
    World class performance doesn't just meet compliance with 
OSHA standards. It means leading the industry and attaining 
injury and illness rates well below industry averages and 
continually improving to create a safer workplace.
    This concludes my remarks. Thank you for allowing me the 
opportunity to speak to you today and I welcome any questions 
you may have.
    [The statement of Mr. Stanley follows:]

      Prepared Statement of James W. Stanley, President, FDRsafety

    Good Afternoon Chairwoman Woolsey, Ranking Minority member Wilson, 
members of the subcommittee, and all assembled.
    I am Jim Stanley and I am pleased to appear before you today on 
behalf of the Uniform and Textile Service Association or UTSA, which I 
am guiding as a safety advisory group member. I was an OSHA executive 
for 25 years, including serving as the Deputy Assistant Secretary of 
Labor.
    UTSA represents 44 member companies all across the United States 
and Canada who provide uniforms and textile service products to a wide 
variety of businesses. The association's membership represents just a 
portion of the 1,200 or so similar companies in the U.S.
    Most importantly, before I begin, I would like to express my and 
the association's deepest sympathies and condolences to the Diaz 
families. The tragedy at the North East Linen plant here in Linden has 
been a devastating loss to them and their friends and colleagues. The 
accident has had a major impact on the entire industry. No words can 
properly express the deep sadness and sympathy we all feel.
    As UTSA's representative, my role today is to offer my opinion on 
OSHA and safety issues, based on my experience in the safety field, as 
well as my 25 years at OSHA. Accordingly, I am not in a position to 
speak for North East Linen nor am I able to comment on the practices of 
individual UTSA member companies. However, I and the association 
believe that every company has a duty to its employees to ensure a safe 
and healthful workplace.
    All agree that safety should be a top priority, but in UTSA's view, 
safety should be more than a priority--it should be a core value--a 
value integrated into the business operations of all association 
members.
    I think this sentiment is echoed throughout UTSA, regardless of the 
size of our members. This is certainly a message that the association 
has conveyed for many years and we will continue our drive to improve 
safety and health efforts with increased intensity in the coming months 
and years.
    I have recently partnered with UTSA to enhance the industry's 
safety program and drive for continuous improvement. Historically the 
safety record of the association's member companies has been good and 
with about 140,000 workers there have been very few plant fatalities in 
the industry over the past decade. Yet the association recognizes that 
additional steps must be taken to ensure the proper commitment, 
systems, and practices are in place at every facility so that every 
worker is properly protected. We are taking numerous steps that are 
proactive and substantive, and we are confident will make a marked 
improvement in our industry's injury and illness performance. Indeed, 
UTSA's overarching safety goal is zero injuries and illnesses and of 
course zero fatalities.
    Additionally, UTSA's Board is driving the future of UTSA's safety 
program. To that end, the association has assembled an Advisory Group 
of outside safety and health experts to guide the association as it 
puts its comprehensive workplace safety plan into action. I am proud to 
serve on this group along with my esteemed colleagues Mr. Wayne Punch, 
Safety and Health Director of Milliken and Company, and Mr. John 
Henshaw, the former OSHA administrator. I can safely say that all three 
of us would not participate if we did not believe the industry is 
serious about making measurable improvements.
    UTSA is taking swift action to implement its plan for improvement. 
I took part in a meeting two weeks ago with the UTSA president and 
staff in which we outlined a comprehensive voluntary safety plan that 
goes above and beyond OSHA compliance. UTSA's plan will make a 
difference across the industry, and simply stated its goal is to: 
Significantly reduce the number of OSHA Recordable Rates and Dart 
Rates. The plan will include goal setting, best practices sharing, 
training, performance tracking, third-party audits, and industry-
specific on-site training, safety tools, and programs.
    Another action that the association is taking is establishing 
association-wide baseline numbers related to workplace injury and 
illness. This is especially significant since the Bureau of Labor 
Statistics current combines dry-cleaning businesses and possibly others 
with our industry's illness and injury data. We believe this does not 
accurately reflect the uniform and textile service industry's 
performance. Once assembled, the data will be shared with OSHA and the 
industry in order to set a foundation on which to build and track 
continuous improvement.
    Perhaps the most important aspect of the plan will be the 
integration of the OSHA ``Challenge'' program into our efforts. Our 
goal is to assist every member company in improving workplace safety 
and health and to prepare each to qualify to participate in OSHA's VPP 
program.
    World-class performance does not just mean compliance with OSHA 
standards. It means leading the industry in attaining injury and 
illness rates well below industry averages and continually improving, 
to create a safer workplace. Let me summarize by noting that UTSA's 
member companies are committed to providing a safe workplace for their 
employees. The association recognizes that not all facilities are the 
same and there is room for improvement. That is why the association is 
moving forward with a major safety and health improvement effort with 
the ultimate goal of improving workplace safety industry-wide.
    This concludes my remarks, thank you for allowing me this 
opportunity to speak to you today and I welcome any questions you may 
have.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Mr. Engler.

STATEMENT OF RICK ENGLER, DIRECTOR, NEW JERSEY WORK ENVIRONMENT 
                         COUNCIL (WEC)

    Mr. Engler. Thank you very much for the opportunity to 
testify today. Thank you, Committeewoman Woolsey and 
Representatives Payne, Andrews and Wilson for inviting us here 
today to make some remarks. As the last person to testify I 
will abbreviate my remarks to keep them on point and to allow 
time for questions.
    The Work Environment Council is an alliance of 70 labor, 
community, and environmental organizations working together for 
safe jobs and a healthy, sustainable environment. In the 
immediate Linden area, our members include affiliates of UNITE 
HERE, Teamsters, Steelworkers, Communication Workers, Auto 
Workers, and other unions as well as environmental 
organizations and if you came off at Exit 13A of the turnpike, 
you came down--as you came down Route 1, you went by the 
largest oil refinery on the East Coast, the Teamsters Local 
that's in the forefront of fighting for safety and health and 
accomplishing things through contracts and through staying 
vigilant, not only for its own members, but for the communities 
of Linden and Elizabeth that surround this giant facility.
    We also extend our heartfelt sympathy to Carlos and Victor 
Diaz. We think that these deaths were clearly preventable, that 
they were possibly criminal, and that they cry out for justice. 
It is also absolutely crystal clear to us after looking at the 
situation for many years, that until there is a President of 
the United States that cares about working people this problem 
will go on and on and on. And I'm not going to talk at length 
the failures of the Bush Administration. This Committee has 
certainly looked into them and more needs to be done to examine 
the sorry track record. But I will rather emphasize some of the 
deficiencies of the consultation program and in the OSHA 
statute, looking forward to a period, hopefully, where we can 
once again look to a major structural reform of the 
Occupational Safety and Health Act, as we have not done for 
over a decade.
    OSHA is now investigation the deaths at North East Linen, 
as has been point out. However, the only time OSHA examined 
this company at location until workers died, was when the State 
Consultation Program, federally funded, conducted a limited 
visit in January 2007 and found no hazards. The review of the 
employer's injury and illness records showed none recorded. 
Workers were not included in the consultant's visit's opening 
or closing conference. Thirty-three workers received hazard 
communication training, but somehow the victims were not 
included.
    Although related to hazard communication, OSHA's confined 
space entry standard meant to prevent exactly this type of 
tragedy was not addressed. Observedly, OSHA enforcement staff 
will not have access to the consultant's report unless North 
East Linen voluntarily shares it with them. That's within the 
policies and regulations under the Act. That's not a particular 
problem associated with the leadership of our State Labor 
Department. It's a structural problem built into the 
consultation program.
    Washington State has consulted several analyses of the 
association between the consultation and enforcement activity 
of their division of occupational safety and health and 
compensable claim rates. All three studies showed that 
enforcement inspections that were associated with a decline in 
workers compensation rates relative to businesses with no 
agency visits. No statistically significant change was found 
among businesses that received only consultation visits.
    A GAO report of a number of years ago in 2001 found that 
OSHA had no way to measure the effectiveness of the 
consultation program, and yet problems continue. We ask that as 
this Committee and Congress looks at OSHA reform for the 
following things to consider: one, employers should only be 
able to receive consultation services if they have a trained 
joint safety and health committee with meaningful worker rights 
and they allow a complete facility inspection for all potential 
hazards with committee participation. Employees and their 
unions should also be able to receive consultant inspections 
upon request. OSHA consultants should refer employers to OSHA 
enforcement if all hazards are not abated within a period 
appropriate to the seriousness of the hazard. And all 
information accessible to the employer should be accessible to 
employees and their union.
    OSHA requires fundamental structural reform in addition to 
changes that have to be made in the statutory language, the 
regulations and the administrative policies relating to the 
consultation program and I suppose the one I'd like to 
emphasize the most today in closing is the question of joint 
safety and health committees. Education is very important. 
Training is very important. And our organization and 
organizations that we've been involved with since the early 
1970s have been involved with training initiatives that have 
trained thousands and thousands of workers. The problem is no 
amount of training is a substitute for power and we very much 
appreciate that Congress has passed the Employee-free Choice 
Act which would help to start level the playing field on issues 
of working conditions. We think a further reform that would be 
appropriate to adopt is mandatory by law occupational safety 
and health committees as they have in Western Europe, Canada 
and many parts of the world.
    In our State we have four OSHA offices with 56 inspectors. 
It would take 75 years at least and our estimates are even 
higher for all the workplaces to be inspected. One OSHA 
inspector for every 60,000 employees. No matter if we had a 
President who was committed and a Congress and a budget that 
could provide many more resources for OSHA, we can't ever 
provide enough and that's why workers and committed management 
in the workplace have to be the eyes and the ears for safety 
and health. And that's why the OSHA Act itself as was proposed 
over a decade ago should be amended to require employers to 
establish joint safety and we would add now security 
committees. These committees should have clearly-defined rights 
and responsibilities including the right to survey the 
workplace on a regular basis, training, and to investigate 
accidents, near accidents and exposures. A number of states 
already require such committees and we do propose some draft 
statutory language attached to the written testimony.
    More than 50 labor organizations in our State support 
mandatory safety and health committees. John Corzine last 
summer pledged to our organization that he has supported their 
establishment as well. And so we think that this is one 
appropriate aspect of OSHA reform. OSHA Act clearly requires 
reform. It's time. We appreciate that Representative Woolsey 
and I'm sure other Committee Members and Senator Kennedy have 
sponsored the Protecting America Workers Act which incorporates 
some, not all, but some of the needed changes. We ask this 
Committee to continue to prepare in 2008 the major OSHA reform 
in 2009.
    Thank you.
    [The statement of Mr. Engler follows:]

     Prepared Statement of Rick Engler, Director, New Jersey Work 
                       Environment Council (WEC)

    Chairwoman Woolsey, Representatives Payne, Andrews, Holt, and 
Wilson, witnesses and guests, my name is Rick Engler. I am the Director 
of the New Jersey Work Environment Council. WEC is an alliance of 70 
labor, community, and environmental organizations working together for 
safe, secure jobs and a healthy, sustainable environment. WEC provides 
training, technical, and organizational assistance to workers and 
unions and links workers, communities, and environmentalists through 
campaigns to promote dialogue, collaboration, and joint action. Our 
members in the Linden area include affiliates of UNITE-HERE, Teamsters, 
Steelworkers, Communications Workers, Auto Workers, and other unions, 
as well as environmental organizations.
    WEC extends our heartfelt sympathy to the family, friends, and co-
workers of Carlos and Victor Diaz. Their horrible, clearly preventable, 
and possibly criminal deaths at North East Linen on December 1, 2007 
cry out for justice.
    Our testimony addresses three problems: 1) the Bush Administration 
favors ineffective, voluntary efforts and superficial partnerships with 
employers over mandatory standards and enforcement initiatives; 2) 
OSHA's consultation program has serious deficiencies; and 3) OSHA 
requires major statutory reforms.
    The Bush Administration has made insuring friendly relationships 
with corporations a higher priority than protecting worker health.
    Major workplace hazards such as repetitive motion injuries, 
airborne infectious diseases, and violence remain unaddressed. The 
first act of the Bush Administration in 2001 was to revoke OSHA's new 
ergonomic standard. Musculoskeletal disorders caused by ergonomic 
hazards continue to be the largest source of job injuries in New Jersey 
and the nation. Yet the only significant rules that have been issued by 
the Bush administration concerning any hazard are ones that have been 
mandated by law or required by court order.
    OSHA should issue new standards to address present day hazards.
    The Occupational Safety and Health Act of 1970 was landmark 
legislation enacted by the Congress with the goal of assuring ``so far 
as possible every working man and woman in the Nation safe and 
healthful working conditions.'' Since that time, progress has been 
made. Job fatalities and injuries have declined and exposures to many 
toxic substances have been substantially reduced. However, in recent 
years, progress has slowed and the death rate has been largely 
unchanged. In New Jersey, between 115 and 129 workers have died on the 
job every year between 2000 and 2005.\1\ Moreover, new groups of 
workers are at risk. Latino and immigrant workers have a high fatality 
rate. They work in dangerous jobs and dangerous industries. Many of 
these workers are unorganized. They do not know or are unable to 
exercise their legal rights. Those who are undocumented are 
particularly vulnerable and fearful.
    OSHA should conduct enforcement initiatives on the hazards that are 
causing deaths. These include confined space entry, machine lockout-
tagout, falls, and highway work zones, as well as in other industries 
employing immigrant workers with high fatality rates.
    At workplaces that use extremely hazardous substances and that 
could endanger surrounding communities in the event of an accident or 
terrorist attack, OSHA has conducted few inspections, even with 
increased public attention to these facilities since September 11, 
2001. Of the 21 facilities in New Jersey that could each potentially 
harm up to 15,000 people, according to employer data collected by the 
US Environmental Protection Agency, OSHA has inspected just eight since 
9/11. For example, OSHA has never inspected Kuehne Chemical in South 
Kearny, a plant where a ``worst case'' release of deadly chlorine could 
kill thousands. This facility is arguably the most potentially 
dangerous plant in our state to workers and communities. This is an 
outrage.
    OSHA's Process Safety Management Standard (PSM) requires facilities 
with extremely hazardous substances to review what could go wrong in 
the event of a release and to ensure safeguards.\2\ OSHA should 
aggressively enforce this standard.
    The number of workers and workplaces covered by OSHA today is 
double what is was in 1970.\3\ In New Jersey, there are four OSHA 
offices with a total of just 56 inspectors, one for roughly every 
60,000 employees. It will take 75 years for OSHA to inspect all 
jobsites in our state just once. And we are one of the better states. 
The national average is 133 years.\4\
    OSHA needs more staff to issue standards and conduct inspections.
    OSHA should abolish the silly partnerships, the superficial 
alliances, and other voluntary compliance efforts that are about PR, 
not worker safety.
    A Congress and President that care about working people can require 
OSHA to issue standards, conduct basic law enforcement, and can focus 
and increase OSHA's staff resources to ensure safety and health.
    OSHA's Consultation Program has serious deficiencies.
    OSHA is now investigating the deaths at North East Linen. However, 
the only time OSHA examined this company location until workers died 
was when the State's federally funded consultation program conducted a 
limited visit in January 2007 and found no hazards. Their review of the 
employer's injury and illness records showed none recorded. Workers 
were not included in the consultant's visits opening or closing 
conference. Thirty-three workers received Hazard Communication 
training, but somehow the victims were not included. Although related 
to Hazard Communication, OSHA's confined space entry standard, meant to 
prevent exactly this type of tragedy, was not addressed. We know that 
commercial laundries often have hazards from excessive heat and 
repetitive work--but these were not addressed either. Absurdly, OSHA 
enforcement staff will not have access to the consultant's report 
unless North East Linen voluntarily shares it with them.\5\
    Washington State has conducted several analyses of the association 
between the consultation and enforcement inspection activity of their 
Division of Occupational Safety and Health (DOSH) and compensable 
claims rates. All three studies show that enforcement inspections were 
associated with a decline in workers' compensation rates relative to 
businesses that had no DOSH visits. No statistically significant change 
was found among businesses receiving only consultation visits.\6\
    Therefore, WEC calls for the following changes to OSHA's 
consultation program:
    <bullet> Employers should only be able to receive consultation 
services if they have a trained joint safety and health committee with 
meaningful worker rights and they allow a complete facility inspection 
for all potential hazards with committee participation.
    <bullet> Employees and their unions should also be able to receive 
consultant inspections upon request.
    <bullet> OSHA consultation should refer employers to OSHA 
enforcement if all hazards are not abated within a period appropriate 
to the seriousness of the hazard.
    <bullet> All consultation information provided to the employer 
should also be provided to employees and their union.
    Other problems, however, require statutory changes to the Act.
    <bullet> Unlike in New Jersey, where the Work Environment Council 
and public sector unions led a successful 2001 campaign for a public 
employee OSHA state plan, 8.6 million workers facing hazards everyday 
in 21 states are not covered by the OSHAct. The Act should be amended 
to cover all public employees nationwide as well as millions who work 
in the transportation and agriculture industries and at Department of 
Energy contract facilities who lack full protection under the Act.
    <bullet> The current national system for reporting work-related 
injuries and illnesses markedly underestimates the magnitude of these 
conditions. A recent study that examined injury and illness reporting 
found that the Bureau of Labor Statistic's Annual Survey missed more 
than two-thirds of occupational injuries and illnesses.\7\ The Act 
should be amended to establish a more comprehensive injury and illness 
surveillance system, such as the one developed for traumatic workplace 
fatalities, a program that does not rely on employer based data 
sources.
    <bullet> Even with significantly more staff, OSHA would not have 
enough personnel to regularly inspect every worksite. Yet workers 
remain largely an untapped source of expertise about the dangers they 
face everyday and can offer practical solutions to prevent those 
hazards. As Governor Jon Corzine has said, ``Who knows better than 
workers about the hazards they face on the job.'' Therefore, workers 
and unions need to be empowered by a reformed OSHA to have meaningful 
participation rights. The Act should be amended to require employers to 
establish joint safety, health, and security committees. These 
committees should have clearly defined rights and responsibilities, 
including the right to survey the workplace on a regular basis, to 
training, and to investigate accidents, near-accidents, and exposures. 
A number of states already require joint safety and health committees. 
(Proposed statutory language is provided at the end of this testimony.)
    <bullet> OSHA whistleblower provisions have not been updated since 
their adoption in 1970. Experience has shown them to be woefully 
inadequate. The Act should be amended to give real whistleblower 
protection to employees so they will be able to use their participation 
rights without putting their jobs on the line.
    <bullet> Finally, the civil and criminal penalty structure for 
violations needs to be reformed to provide meaningful incentives for 
employers to comply. Currently an employer may only be charged with a 
misdemeanor when a willful violation leads to a worker's death. This 
should be a felony. All penalty money should be set aside for health 
and safety training, education, and research.
    Cleary, the OSHAct requires major reforms. It is time. We 
appreciate that Representative Woolsey and Senator Kennedy have 
introduced the Protecting America's Workers Act, which incorporates 
some of the needed changes.\8\
    WEC asks Congress to prepare in 2008 to make OSHA reform a priority 
in 2009.
    We request that this subcommittee hold additional hearings to 
address the Bush Administration's weakening of OSHA enforcement and the 
statutory deficiencies of the OSHA Act that have become evident since 
its passage in 1970.
    Thank you for holding this important hearing and for providing the 
Work Environment Council the opportunity to testify.

   Proposed Draft Language on Safety, Health, and Security Committees

 Prepared by the New Jersey Work Environment Council, January 11, 2008

    Within three months following the effective date of this rule, the 
owner or operator of the facility must establish a Safety, Health, and 
Security Committee for that facility.
    Existing safety and health, environmental, or similar committees 
that meet all of the requirements of this section may be used in lieu 
of establishing a new Committee by written agreement of the owner or 
operator and the employee representative(s), if any.
    The Committee shall be composed of employees and management, with 
at least an equal number of employees to management representatives.
    The total number of Committee members to be selected shall be 
determined by the number of employees at the facility as follows:
    10-19 employees--2 members
    20-99 employees--4 members
    100-299 employees--6 members
    300-499 employees--8 members
    500-999 employees--10 members
    1,000 or more employees--12 members
    Alternate members may be designated if members are temporarily 
unavailable.
    All committee members shall be employed at the facility.
    In workplaces with an employee representative, the employee 
representative shall select employee members. In workplaces without an 
employee representative, management shall actively solicit volunteers 
among employees potentially exposed to hazardous substances. If there 
are no volunteers to serve as committee members at a facility where 
there are no employee representatives, the owner or operator shall 
select employee members.
    The owner or operator shall prominently post at each process a 
current list of the names and work location of all committee members, 
which shall specify whether they are employee or management members.
    The Committee shall be co-chaired by an employee committee member 
and a management committee member.
    The Committee shall meet at least monthly at a time, date, and 
location agreed to by the committee.
    A majority of committee members shall constitute a quorum for the 
transaction of committee business.
    Actions by the committee shall require an affirmative vote of a 
majority of the members present.
    The Committee shall have authority to:
    a) identify, discuss, and make recommendations to management 
concerning potential hazards and risks relevant to security, safety, 
health, and the environment and potential responses;
    b) survey the workplace for potential security, safety, health, and 
environmental vulnerabilities and determine a schedule to survey all or 
part of the facility monthly;
    c) assist in the investigation of, as soon as practicable, 
accidents, releases, fires, explosions, and near-miss incidents; and
    d) participate in the initial and ongoing development, review, and 
revision of any Risk Management Plan, Facility Vulnerability 
Assessment, Inherent Safety Options Analysis, Risk Reduction Plan, and 
emergency response plan, as required for that facility.
    The Committee shall ensure that its recommendations are reduced to 
writing and that the status of past recommendations is reviewed at the 
subsequent meeting. The owner or operator shall address each 
recommendation, accepting the recommendation, offering a revision, or 
denying the recommendation and providing justification for the denial. 
In the event of a disagreement within the Committee, such disagreements 
shall be documented and shall be retained by the owner or operator.

                                ENDNOTES

    \1\ NJ Dept. of Health and Senior Services, Occupational Health 
Service Annual Report, FY2007, July 2007. www.state.nj.us/health/eoh/
odisweb/documents/annual--report--fy07.pdf
    \2\ WEC letter to OSHA dated February 20, 2007 and OSHA response of 
July 5, 2007.
    \3\ Testimony of Peg Seminario, Director Safety and Health, AFL-CIO 
before the Senate Employment and Worker Safety Subcommittee of the 
Health, Education, Labor, and Pensions Committee Hearing on ``Is OSHA 
Working for Working People?'' April 26, 2007. www.aflcio.org/issues/
safety/upload/SeminarioOSHA20070426.pdf
    \4\ AFL-CIO, Death on the Job: The Toll of Neglect, April 2007, 
citing data from the Bureau of Labor Statistics. www.aflcio.org/issues/
safety/memorial/upload/doj--2007.pdf
    Data for number of OSHA inspections in New Jersey is from OSHA as 
of September 2007.
    \5\ OSHA Regulation 1908.7(a)(3) says: ``The identity of employers 
requesting onsite consultation, as well as the file of the consultant's 
visit, shall not be provided to OSHA for use in any compliance 
activity, except as provided for in Sec.  1908.6(f)(1) (failure to 
eliminate imminent danger,) Sec.  1908.6(f)(4) (failure to eliminate 
serious hazards,) paragraph (b)(1) of this section (inspection 
deferral) and paragraph (b)(4) of this section (recognition and 
exemption program).''
    \6\ Z. J. Fan et al. The Effect of DOSH Enforcement Inspections and 
Consultation Visits on the Compensable Claims Rates in Washington 
State, 2004-2005, December 2006. http://lni.wa.gov/Safety/Research/
Files/Cne2006.pdf
    \7\ K.D. Rosenman et al. How Much Work-Related Injury and Illness 
is Missed by the Current National Surveillance System? Journal of 
Occupational and Environmental Medicine, Vol. 48, No. 4, April 2006. 
The study focused on Michigan.
    \8\ Press release from Senators Kennedy, Murray and Reps. Woolsey, 
April 26, 2007. http://kennedy.senate.gov/newsroom/press--
release.cfm?id=886469E3-04D2-4E72-B33A-38A9A538CCCB
                                 ______
                                 
    Chairwoman Woolsey. I thank you. Thank you for your 
testimony. I now recognize myself for five minutes and each of 
us will have five minutes to ask you questions. When the time 
is over we probably will do another round unless we've used up 
your whole day.
    Thank you so much. This was very good. I don't know if any 
of you know, I was a human resources executive for 20 years in 
the high tech industry of telecommunications in California. We 
had CALOSHA and we had management, actually employee safety 
committees. I was the management member on there, so it was 
amazing in that safe industry what we would find when we would 
walk through our plant and how the workers then related to 
their responsibility to keep the plant, the doors open, you 
know, whatever. All the stuff they were supposed to do. It made 
all the difference in the world. And then they would feed back 
up to management what needed to happen. Management took it 
seriously. If there's a will, there's a way. So I'd like to 
start with that and using North East Linen as our example 
because that's why we're here today and I'd like to start with 
you, Mr. Stanley, with your OSHA background and I know you're 
not going to speak for UTSA, but with your OSHA background, 
talk to us from your perspective, how different could this 
tragedy have turned out had North East Linen been--had to, not 
voluntarily, but had to have training, not ought to, but must 
have had training, how different would this have turned out and 
why aren't--why isn't business making that happen? I mean the 
resources are available to them through their very own State.
    And I'd like you, Mr. Socolow, Commissioner, to tell us how 
to go about promoting these programs and how you get there.
    So let's start with you, please.
    Mr. Engler. Thank you. Obviously, I don't know anything 
about what happened at North East Linen, but on a situation 
where you take a general company and we have let's just say 
confined spaces, any company--in order to have an effective 
safety and health program there's three major components. One 
is top management has to be totally and unwaivingly committed 
to the safety and health of their employees. And that's just 
not a----
    Chairwoman Woolsey. And what if they aren't?
    Mr. Engler. If they aren't, they're not going to have an 
effective program. That's number one. You have to have top 
management doing the right thing and the right thing isn't just 
saying safety is our number one priority. The right thing is 
not only saying it, but doing something about it. And that's 
giving the resources, allowing the resources for an effective 
safety and health program, allowing people to--and requiring 
people to go through the facilities, correct conditions and 
provide training. And secondly, you need an effective program 
and usually the emphasis on an effective program is your front 
line managers. Front line managers have to have the tools to 
manage safety and health in the workplace. So management has to 
give the front line managers the tools to do that. It's not 
just production and it's not just quality. It's safety too.
    And finally, and to your point, the employees have to be 
involved whether it's through a safety and health committee or 
through any other means that they're involved in the safety and 
health process. All of those things have to happen. And in any 
case, and when you have those three elements, then the required 
training will be done. The enforcement of the rules will be 
done and both parties, both workers and management will stand 
up and do the right thing.
    Chairwoman Woolsey. All right, Mr. Wowkanech, what happened 
with North East Linen?
    Mr. Wowkanech. I think you'd probably get a better answer 
from Eric Frumin, but I believe that they were not cooperative 
with the union and they didn't want to engage in any of these 
type of practices and as a result their employees were not 
trained in these type of activities and should not have--
weren't familiar with the regulations or what they were 
entitled to in terms of protection or people outside the tank. 
They just went in there. But I wanted to point out to what my 
colleague, Mr. Stanley, said and I know the Commissioner will 
talk about it as well. We were just involved here in New Jersey 
in a very, very incredible project. As you know, New Jersey is 
also the home to many of toxic chemical companies as well as a 
very big petrochemical base and New Jersey proudly became the 
first State to mandate that all the workers in these facilities 
had to be trained in terms of security training. But it points 
to what this gentleman had said. I got involved in the project 
through Governor Corzine and Commissioner Socolow and we had 
over, and you're in Washington with the various committees, so 
you know. We had over 28 different agencies involved in this 
project to design the curriculum that the workers in these 
plants would be taught and participated in designing the 
curriculum. That was the important part. They were at the 
table. But it was an incredible experience for me. It took 
almost nine months. I can't tell you how many countless 
meetings I went to, Chairwoman, but the important fact is when 
we first started we had the workers. We had some companies that 
were some pretty bad players that didn't want to play, okay? 
And we came into this conference room and people weren't 
talking. At the end of nine months, after an exchange of ideas 
from management, from the workers, from federal OSHA, from 
Homeland Security, from the FBI and the New Jersey State 
Police, I mean it was an incredible experiment. People actually 
started contributing and developed something that I think is 
very special here. And the companies, the chemical companies 
and the petrochemical companies put some skin in the game by 
deciding to send workers, along with management to our state 
university to be trained and then allow the workers in the 
plant to be trained on company time. So it sort of was maybe a 
long description of what Mr. Stanley just tried to describe. 
The cooperation didn't start at the beginning, but I think what 
we're looking for here once the Governor established this 
regulation, and said this is what you're going to have to do 
and the companies and the unions and everybody else realized 
that we've got to get together to do this or we can't do 
business here any more, things happened.
    Chairwoman Woolsey. So how is this promoted and how is it 
enforced, Mr. Commissioner?
    Mr. Socolow. So with respect to the chemical industry and 
petrochemical industry standard that was essentially done as a 
homeland security initiative and then recognizing that the key 
to homeland security is worker safety, that they actually go 
hand in hand. But I think--and so it was enforced and created 
through our State's efforts to regulate those industries from 
the perspective of chemical and petrochemical security for 
homeland security, hometown security.
    That being said, I think President Wowkanech is exactly 
right. This is a good template for how an industry can be 
brought into a discussion with a whole host of agencies. It was 
alphabet soup putting this together with all the different 
acronyms and all the different agencies, government agencies, 
but all real, meaningful participation by workers, by unions, 
and by industry. And industry, I think, has to hear that when 
they have this kind of experience and they have this kind of 
bad worker safety record, that it's time to do something 
different and to develop something that goes above and beyond 
anything that might be required by formal federal OSHA rules, 
to develop something in this kind of a partnership. I think 
it's a very good idea and I certainly would support it.
    Chairwoman Woolsey. Mr. Frumin?
    Mr. Frumin. I think the critical missing element in the 
laundry industry generally and at this company in particular, 
based upon the facts that are available to us is that the 
employers don't worry about OSHA enforcement. They just don't.
    Chairwoman Woolsey. Why is that?
    Mr. Frumin. OSHA does not routinely as a matter of policy, 
as a matter of affirmative policy, does not initiate program 
comprehensive safety inspections at industrial laundries. It's 
off their target list. It's a high-risk industry. Wall Street 
Journal even blessed it as such last month. So that's a 
critical problem and this industry has a lot to learn about 
what it means to function in a responsible way. This company, 
in particular, has a lot to learn. Their record of discouraging 
worker voices is very clear. The National Labor Relations 
Board, General Counsel just issued a complaint against this 
company for mistreating workers who were speaking up and that 
message would get out very clearly to any workers there who 
would speak up on any subject. What is stunning is that they 
continued to do so on the face of a worker complaint, again, no 
program inspections at the same company's plant in New Haven in 
Connecticut a year ago that they would fly in the face of that 
experience and ignore it. So we have a problem with a mandate 
that's not felt at the workplace in this industry.
    And the critical difference is is there a mandate? Is there 
a will to make that mandate felt. We have a failure of 
enforcement here that has just left us with horrible, horrible 
effects. Now I think Mr. Engler can tell you how that mandate 
can translate down in New Jersey in a variety of other 
industries as well in addition to the example you've heard 
about here which I think would be useful to put in context how 
stunning the bad behavior was at this one company in New Jersey 
because we have a lot of other companies who have the same 
kinds of problems, but the lack of enforcement here is just 
breathtaking. That it should happen as a matter of agency 
policy to exempt an industry from routine enforcement, leave it 
up to workers who are then are subject to that kind of abuse by 
an employer, it's a prescription for disaster.
    Chairwoman Woolsey. Thank you. Mr. Wilson?
    Mr. Wilson. Thank you, Chairwoman. I thank all of you for 
your presentations today. It's been very instructive.
    Mr. Stanley, in one of the subcommittee hearings last 
spring, Secretary Ed Foulke made a statement that one fatality 
is one fatality too many. Last month, the Bureau of Labor 
Statistics reported the sixth consecutive year of a reduction 
in worker-related deaths and injuries across America, yet fatal 
accidents occur in the laundry industry as well as others 
despite OSHA's success. Based on your experience how can 
companies and individual workers best work together so that 
safety, as you identify, is a core value?
    Mr. Stanley. Well, basically, the companies that I've been 
associated with that I recently retired from a company that has 
this year had a total reported rate of 0.2 and they have 6,000 
employees and they are in heavy manufacturing, so it can be 
done. The goal in the companies--you can't set a zero goal 
for--you can set a zero goal for a year, but you have to set 
your goals on a day-to-day basis. Every day, everybody should 
come into the facility and say today no one is going to get 
hurt in here. And so basically the answer to your question is 
it will never happen unless management and workers are 
cooperating and step up and both of them do the right thing. 
And do the right thing is following the rules of the road, 
training workers, correcting hazards and holding everybody, 
management, and workers, accountable to do that right thing.
    Mr. Wilson. And Mr. Stanley, I was encouraged to hear that 
the Uniform and Textile Service Association will be taking 
aggressive steps to improve health and safety of its workers. 
In fact, I was impressed by the formation of the Safety 
Advisory Group that you will be serving on. As a member of the 
Advisory Group, what guidance will you give UTSA in terms of 
how to instill safety as a core value throughout the industry?
    Mr. Stanley. Well, we set forth five general areas and I'm 
not going to go through every one, but first of all, we're 
going to survey every company in our association to determine 
what the actual recordable rate and dart rates is so that we 
can use that as a baseline to go forward. And we're also going 
to develop an annual safety management institute for our front 
line foremen, bring them in and give them the tools to manage 
safety, how to conduct an audit, and how to do a toolbox talk 
and how to work with your employees for safety and health.
    And our audit team is going to be an independent audit team 
is going to be made available to all association members, 
either announced or unannounced, whatever way they want to do 
it, but to audit, get another set of eyes into our member 
companies' establishments and go through their safety and 
health program and give them recommendations in how to improve. 
And we're also hoping to put every worker, every single worker 
that we can through an 8-hour safety and health awareness 
program and maybe every employee in the facilities through an 
8-hour safety and health awareness program which has been shown 
to be very, very successful in heavy manufacturing sector. As a 
matter of fact, it has been so successful that some companies 
have done it more than one time, two and three and four times.
    And then we're going to--the association is going to become 
a certified OSHA challenge administrator and we're going to 
take the VPP rules, not necessarily say that everybody is going 
to get into the voluntary protection program and I understand 
the feelings of some people in this room about VPP, but that 
aside, what is required under the voluntary protection program, 
the programs that are required, we're going to initiate and 
look at every single one of our association members that steps 
up. We think that's going to be truly rewarding.
    Mr. Wilson. And a final question, drawing upon your 25 
years of promoting worker safety, what is your opinion 
regarding the premise that unionized plants are safer than 
similar, nonunionized plants?
    Mr. Stanley. Well, actually it's 40 years, Congressman, 
that I've been safety and health. I've been a safety and health 
guy for that long. I started on the Philadelphia waterfront in 
1966 and----
    Mr. Wilson. Well, you're holding up well.
    Mr. Stanley. I am holding up well. But I have--I really 
can't put a figure on this. I've been asked this question a 
hundred times over the years. When I was with OSHA, when I was 
in the steel industry, and now that I'm a consultant. I have 
been in some facilities that have been union, that are the best 
run safety and health programs that anyone would ever want to 
see. I have been in similar facilities that have been nonunion 
and also have had an excellent, excellent program. And the 
opposite is also true. I have been in union facilities that 
scared me and I have been in nonunion facilities that were so 
hazardous that you wanted to turn and run. So I don't think 
there's any measure. I don't think there's any way to measure 
whether or not the organized labor facilities are any better 
than the unorganized, the ones that want to do the jobs, the 
companies that want to do it, I don't think whether or not they 
have a union is the primary thing. If they want to become world 
class--all the information and all the help from everywhere is 
there to do it. It has to be the companies that want to do it.
    Mr. Wilson. Thank you.
    Chairwoman Woolsey. Congressman Payne?
    Mr. Payne. Thank you very much. Let me ask the same 
question perhaps to Mr. Frumin, Mr. Wowkanech, and Mr. Engler. 
What is your opinion from the industry association and we know 
we're talking general and there's no question that individual 
companies and leaders of companies make a difference, but just 
take in general, what do you believe with a unionized plant as 
opposed to nonunionized plant as relates to safety and other 
conditions?
    Mr. Frumin. To cut to the chase, this is at at-will 
employment country. Unless the law protects your job, they can 
fire you for anything or for nothing at all. And you on the 
Committee know this very well. So it doesn't take much for an 
employer to send a clear message to a worker that if you speak 
up about any issue, you're a troublemaker, we're going to get 
rid of you one way or another. And that's the message that New 
England Linen, North East Linen has the ability to send to 
workers here in Linden. And that's what the National Labor 
Relations Board General Counsel themselves concluded. That's a 
bad message to send out to a workforce in a dangerous industry 
because people are going to scared to speak up. And that's 
before you deal with issues of literacy, about people with 
documentation problems, whatever, just in general. So if 
workers don't have the ability to feel comfortable speaking up 
about workplace conditions and they're on the wrong end of the 
power dynamic in that workplace, they're not going to be able 
to do anything to protect themselves and we're afraid that 
that's what we're dealing with here at North East Linen.
    Now having said that you also on the Committee know that 
the whistleblower protections under the OSHA Act are extremely 
weak. They're extremely weak, worse, in fact, than under so 
many other laws and the work that you've done, Chairwoman 
Woolsey, to greatly improve those protections is vitally 
important, not only for people who are in all those other 
situations, but particularly for people concerned about safety. 
So I would say right now, in America, whether it's in Linden, 
New Jersey or Linden, California, if there is such a place, 
workers have no real protection if they're whistleblowers about 
health and safety. And they need that protection and they're 
going to get it--if they're going to get it at all, they're 
going to get it because they're a member of a union and they've 
got that protection.
    Short of that, they don't have any protection at all. I'm 
curious what the others think.
    Mr. Payne. I just might comment that we tried to get it, 
employee, anyone from the plant, but no one volunteered, so you 
could almost assume that things aren't so bad since nobody want 
to come forward, but maybe that would be a wrong assumption. 
Maybe that's hard to prove a negative, I guess.
    Charlie?
    Mr. Wowkanech. Congressman, I think the answer to that 
question is very simple. Victor Diaz and Carlos Diaz. I think 
if there was a union in that plant and they had another way to 
go to get--rather than get in that tank that day or possibly 
they may have had some training, that this wouldn't have 
happened. It's been just my experience over the years that we 
try and operate in a cooperative spirit here, but when the 
companies don't have any pressure or they don't have any 
mandate, and there are some good companies. I don't want to say 
that all corporate America is, but there are some good 
companies, but by and large, what makes these companies develop 
these programs and adhere to the program is when there is a 
union involved. It's very, very simple.
    The other example, and it's funny you talked about the 
whistleblower protection, but we had a situation in this State, 
not dealing with laundry workers, we had a situation in this 
State about three or four years ago with our nurses where 
because of HMO regulations and the reduction of staffing, 
nurses were starting to complain about their workload and the 
amount of patients that they were handling. Well, what happened 
is they started getting removed from their positions, so the 
nurses' unions in our State came to us. We drafted a piece of 
legislation. And now the law was passed and I think we became 
the fourth or fifth state in the nation here to enact that 
legislation.
    Mr. Payne. Well, Charlie, it sounds like you're wired or 
something.
    Mr. Wowkanech. But now nurses, no different than these 
laundry workers, had a voice. They have a voice. If they see 
something wrong on the hospital floor or something that's being 
done, they can now bring it to the hospital management without 
the fear of having their shift changed, having their days 
changed, or getting fired. And that's why I think it's 
incumbent upon this Committee in this town of Linden, New 
Jersey, to send a strong message to this company to say that 
you must, if you can do that, you must form this committee. I 
mean the State is going to give them the money. The State is 
going to send the people in there to train the workers. So 
after losing two employees, if they're unwilling to do that, 
then they need more than a union. They need to be put in jail.
    Mr. Engler. I would like to add that there was an 
interesting subtlety to Jim Stanley's comment earlier and as 
you know, Jim, you and I go back a ways and there's often not 
subtlety to our interactions, but when it was discussed, when 
you brought forward the idea that there would be employee 
involvement through some means, there was a lack of specificity 
there. And that kind of a replay on the earlier debate we had 
during the OSHA reform over ten years ago where we said at 
least in a fixed workplace, not necessarily a mobile workplace, 
or building sites that move, there needs to be a mandatory 
safety and health committee with authority, with clear 
responsibilities, and clear worker rights.
    And management said well, maybe there could be other means 
to do that and then we said what are the other means? And there 
would be suggestion boxes or stuff, dialogues, tailgate 
sessions, I mean things that might have an interactive 
educational fuzzy and warm feel to them, but were not about 
what is a core element of OSHA reform, mandatory committees, 
with a series of rights, the right to inspect the workplace on 
a regular basis. The right to have that training that we've 
talked about a lot. the right to be able to investigate not 
only accidents, but near misses. And some in a state campaign 
that industry frankly defeated in the early 1990s, one of the 
initial part of a bill that we had was in eminent danger 
situations, there ought to be a clearer authority for trained 
members of joint safety and health committees to direct a 
particular operation, not a whole plant, but a particular 
operation to temporarily cease until the danger is corrected. 
All these things are part of OSHA reform that are necessary and 
having some kind of superficial pledge of employee involvement 
is not sufficient.
    And there is a challenge that we can put to trade 
associations on this question. I believe that I saw an 
interesting dialogue of your Committee on the Texas City, Texas 
disaster whether there was an interaction with the head of the 
American Petroleum Institute to the effect of how is API going 
to please its own members and that people were going to be 
kicked out if they didn't comply. Well that would be an 
interesting thing for your trade association to adopt, for 
other trade associations to adopt, that if there are bad actors 
within the trade associations, they can't be members. The 
American Chemistry Council has threatened this for years. I 
don't know if they've implemented it. There's other challenges 
for trade associations. For example, the Chemistry Council of 
New Jersey which boasts up the wazzoo about its wonderful 
illness and injury and environmental and security record, 
refuses to disclose its injury and illness rate by facility. If 
people are serious about this, what's the big deal about saying 
okay, the form is already required, we'll make a photocopy of 
the OSHA log and submit it to the Mayor or to people upon 
request who live in the community. The union has a right to it. 
Workers have a right to it, but it would be another spotlight 
on recalcitrant employers and their associations to make the 
log of injuries and illnesses essentially a public document. 
And the New Jersey Chemistry Council was given the opportunity 
to do that and they ignored us entirely. We thought it was a 
reasonable request. No additional paperwork. A few cents in 
xeroxing. We thought the chemical industry and the oil industry 
in the State could afford it and they said no.
    Mr. Payne. Thank you very much.
    Chairwoman Woolsey. Mr. Andrews?
    Mr. Andrews. Thank you, Madam Chairman. I want to thank you 
for bringing your advocacy for this cause to our home state. 
It's great to see you, great to welcome our friend from South 
Carolina. And Don Payne, thank you for having us in your 
District, and letting us see firsthand your usual thorough 
advocacy for the people of your District. I thank the witnesses 
also.
    I want to ask Mr. Stanley, there's an ancient principle in 
our law that we draw distinction and penalties and remedies 
between those who carelessly commit a wrong versus those who 
commit a wrong knowing that they've done something wrong.
    OSHA law already understands and recognizes this 
distinction. There are differences in penalties and remedies 
between a knowing violation by an employer and a careless 
violation. Is that correct? Is that your understanding?
    Mr. Stanley. A knowing violation that causes death.
    Mr. Andrews. Yes. I wonder if we might extend that 
principle in a different way. What if we have an employer and 
I'm not speaking with direct reference to the case here because 
I know you're not here to talk about that specific case, what 
if we have an employer that owns multiple plants and the 
employer is found to be in violation of a specific OSHA 
standard in Plant A. There's no inspection at all of Plant B or 
Plant C. But a death results as a result of a failure of the 
same standard that the employer failed to meet in Plant A in 
Plant B. Do you think it is good public policy that the law 
should treat that violation in Plant B as a knowing--a 
violation where the employer had actual knowledge of a problem 
in this area of this standard?
    Mr. Stanley. First of all, it is presently treated as a 
repeated violation which carries with it the maximum penalty of 
$70,000, similar to what you're saying in knowing and I will 
categorize that as a wilful violation.
    Mr. Andrews. Right.
    Mr. Stanley. If the investigation reveals that the 
violation in the second plant, repeated as it was, the employer 
knew or should have known to the degree of a wilful violation, 
then I believe that agency should, in fact, recommend that for 
criminal prosecution.
    Mr. Andrews. I appreciate that. I think Madam Chairman, 
there's a point of some consensus right there. I think that if 
you have a situation where a single owner or single employer is 
responsible for a violation in one of his or her plants, has 
the same violation in another plant, it seems to me at the same 
presumption the employer knows what's going on should apply and 
the higher penalties and more strict remedies ought to apply as 
well.
    Commissioner Socolow, you noted that your department does 
not have jurisdiction over violations of OSHA standards in the 
private sector. I know there are cooperative programs where 
states can have some of that jurisdiction. Can you identify for 
us what you think the weaknesses in those existing programs are 
and what improvements we might make so that more inspectors 
might be there and the context of that question is that my 
understanding is that for the nation if you add up the number 
of inspection personnel on the federal OSHA payroll, and the 
number of inspection personnel on state worker safety payrolls, 
it's about 2,000 people in a nation of 200 million workers. It 
strike me that local police can write a speeding ticket on 287, 
not just the state police. Isn't there some way we can get more 
enforcement from state and local enforcers? How would we do 
that?
    Mr. Socolow. Well, certainly the federal OSHA Act gives 
states the option to become a state plan state and 24 states, 
including California, Madam Chairwoman, have taken that option 
and therefore they take control of all OSHA in their state. 
When you do that, you're essentially going into a grant program 
with federal OSHA and I will say that all 24 of those state 
plan states have written to the Congress, specifically to the 
appropriators, noting that that line of the OSHA budget has 
been underfunded. The states are overmatching to use the 
language. We're putting more money, state money into those 
programs than the rules say we should and so that would help 
those states that chosen to do that.
    That being said, you have either way, you've created a 
state program that's supposed to be at least as good as federal 
OSHA and in fact, many of those states try to go above and 
beyond what federal OSHA is doing. But that's as good as you're 
going to get. You're not going to see additional funding.
    Mr. Andrews. I guess I'm asking a slightly different 
question which is that even if New Jersey is not a state plan 
state, if one of your employees were to go in during one of 
these consultation sessions and find an egregious violation, do 
you think that he or she should have enforcement authority to 
either do something about it or at least have some 
recommendation to federal OSHA where they would have to do 
something about it?
    Mr. Socolow. The rules now of that consultation program 
which is separate, are that if you see a hazard, you, in fact, 
tell the employer they have to comply, they have to come into 
compliance. They have to remedy that problem and then you--and 
I think it's been recommended by Mr. Engler that the amount of 
time that then elapses to give the employer time to figure that 
out, trying to fix that problem ought to be shortened because 
right now under the federal consultation program the state 
consultant goes in. It is absolutely supposed to be a no gotcha 
consultation program.
    Mr. Andrews. Right.
    Mr. Socolow. The whole purpose is to give them an 
opportunity to fix their problems. I think that it's true that 
the way federal OSHA has that set up, that's almost an endless 
process. But eventually, if they don't correct it, yes, the 
state consultation program does refer that to OSHA.
    Mr. Andrews. I assume my time has expired. I think your 
testimony points out there is a difference between a safe 
harbor during which an employer is making a good faith effort 
to bring the plant into compliance which you want to encourage.
    Mr. Socolow. Right.
    Mr. Andrews. And dilatory tactics that delay forever the 
repair or address of a problem identified during that process. 
My sense is that the great risk of those dilatory tactics is 
with us today.
    Mr. Socolow. I think that's right. And Congressman, federal 
OSHA could change that by regulation or certainly with the 
encouragement of the Congress.
    Mr. Andrews. I think the Committee with the Chairwoman's 
indulgence would be interested in the panel's views, each of 
the panelists' views as to how that legal change might look. 
Thank you.
    Chairwoman Woolsey. Mr. Holt?
    Mr. Holt. Thank you, Madam Chair. With the others here I'd 
like to join the family in mourning the deaths of each Mr. 
Diaz. I'd also like to join in thanking Mr. Wilson for coming 
to New Jersey, the Chair for holding this hearing, especially 
Mr. Payne for his assistance here in looking after the welfare 
of the folks here in his part of the State, and my friend, Mr. 
Andrews, for his perceptive questioning and legislation that's 
in the works. I'm pleased to see UNITE HERE here. Here, here. I 
really do agree with the earlier comment that if they had been 
able to organize this site, we wouldn't be holding this hearing 
here today because of these deaths.
    Mention was made earlier of Pete Williams. Workers never 
had a better friend than New Jersey Senator Pete Williams. And 
OSHA is certainly a case in point. From the time it was passed, 
the rate of workplace deaths has fallen to about a quarter of 
what it was. There are several hundred thousand, three or four 
hundred thousand people, at least, who lived because of what 
Pete Williams did. And they will never know who they are. Not 
to mention the many thousands who have their eyes, their arms, 
and they will never know who they are. OSHA has worked. It can 
work better. But it is worth underscoring that legislation can 
work.
    And there are some things that we need to do here. 
Certainly back in Washington we need to do mine safety. We 
need, as Mr. Andrews and Ms. Woolsey are about to do, we need 
to bring government workers under this coverage. But there are 
some things with the existing OSHA we need to work on.
    Let me run through several questions and you can answer 
them in turn as you see appropriate. First for Commissioner 
Socolow and Mr. Wowkanech, both of whom we're very proud of 
here in New Jersey I must say, why do you think New Jersey has 
better statistics? Lower death rate, 2.6 instead of 4 per 
100,000. Is it because we have organized unions? It's not 
surely because we only have safer jobs here. I mean office work 
can be dangerous and deadly if there isn't an eye towards 
safety. Is it because we have industrial committees or 
consultation services?
    I'd like to ask Mr. Frumin who knows a great deal about 
OSHA statistics, whether these claims that--just how good these 
statistics are and what can we do to include things that don't 
make it into the statistics, the near misses, the musculo-
skeletal, the MSDs, and minor injuries that actually terribly 
costly. I mean $1 billion a week estimated in direct costs of 
workplace injuries and four or five times that in indirect 
costs. So there are reasons to cut back on these minor injuries 
and to keep track of them so that we can keep cutting back, but 
also they are perhaps a measure of the safety of the workplace.
    And I would also like to ask Mr. Stanley, your website says 
that employees should avoid unsafe acts and risky decisions. Do 
you think that Mssrs. Diaz should have avoided those risky 
decisions? Could they have avoided those risky decisions? Were 
they in a position to do so?
    And finally, Mr. Stanley, what would be the harm in having 
mandatory joint worker-management safety committees? What is 
there to object to? Is it so costly? Why would a company 
object?
    So let me throw those questions.
    Mr. Socolow. All right, I'll start off, Congressman. I 
first wanted to say I think you're right in one of your second 
questions that we shouldn't crow too much about incident rates 
and accident rates. I think that there are some questions about 
the data, but I think that they do serve to provide at least 
relative data across time and across different industries.
    New Jersey does, in fact, have lower rates and I think that 
is, in part, because we do have more enforcement resources from 
the federal government than in some other places. We are 
blessed to have a slightly more robust enforcement presence, 
still not enough, but more from federal OSHA. I think we also 
have done a lot to try to create a culture of safety with our 
outreach and our efforts at the state government level with our 
partnerships. But I do think that there is a piece of that that 
is absolutely attributable to union density. New Jersey has one 
of the highest union densities in the country, almost one out 
of five workers in New Jersey belong to a union. And that's one 
of the few states in which that number is actually going up.
    It's been asked of a number of people do we think that a 
union helps make workers safe? I think it can't help but be the 
case because even without an occupational safety and health 
joint labor-management committee, there is at least that avenue 
for whistleblowing or for a voice. But I think that even more, 
unions have played a very constructive role in bringing 
management to the table and having this be one of the issues 
that workers and management agree on because safety and health 
actually is in the best interest of the business. It is good 
for the bottom line and it's something that unions can bring 
management to the table on and make a real difference, to get 
them interested and involved, so that they can fight about 
other issues, but they can agree on safety and health. So I 
think that that plays a real role in New Jersey.
    Mr. Holt. I think the Commissioner did a pretty good job at 
answering my question.
    Mr. Engler. Can I just add one thing here is that the other 
reason I think that we have lower injuries and illnesses, even 
though the surveillance system is very suspect. There's a study 
we refer to in the testimony about that, is that there is a 
history here of unrelenting and aggressive advocacy by the 
labor movement and by allies among environmental and community 
organizations. In 1983, a coalition passed the right to work 
and community right to know law which was then expanded, 
sponsorship by Representative Florio and Senator Lautenberg to 
cover the whole United States and led to OSHA's hazard 
communication rule.
    More recently, the public employees state plan in New 
Jersey is the most recent state to adopt such a plan. And 
today, even if it's not that many people in this room know 
about it, the New Jersey Education Association has one of the 
most advanced programs for protecting its members on safety and 
health of any union in the United States. And when they protect 
their members, they're also protecting our kids and the 
community as well. And so I think that when you look at the 
numbers and the charts and the graphs, it's one thing, but when 
you look to the actual history of people fighting for safety 
and health and environmental protection in this State, it's 
that rich history, that collaboration, those alliances that 
have made a substantial difference.
    Mr. Frumin. Well, I would second the comments from Mr. 
Socolow and the others. Rick's point about the history and why 
things change is very important.
    Mr. Holt, specifically to your question about the injury 
and illness data, this deserves a very serious examination by 
this Committee and I would hope that Madam Chairwoman that you 
would give yourself and the other Members of the Committee the 
opportunity to do that, to bring in witnesses to go over in 
some considerable detail the weaknesses in our injury and 
illness recordkeeping system. One of the most glaring of those 
weaknesses, however, is well-known to us. It was a decision of 
the Administration to remove from the OSHA log the specific 
requirement to record what are called musculo-skeletal 
disorders or injuries related to bad ergonomics. And that was 
the fallout from the Congress' horrific decision, not under 
your leadership, obviously, to repeal the ergonomics standard 
in 2001. That group of injuries are among the biggest single 
group of injuries in the entire economy and among the most 
preventable and among the most costly.
    I'm here in New Jersey, but I'm a resident of New York. I 
just spent nine months with the Labor Commissioner's Advisory 
Council on return to work under the New York State Workers 
Comp. reform effort dealing with billion dollar consequences 
for decision making on workplace injury and workers 
compensation. The overwhelming number of long-term, long 
disabling injuries and this is true in every single state, New 
Jersey included, are musculo-skeletal disorders, typically 
lower back injuries, but others as well, which cost employers a 
lot of money and the decision by the Administration to 
specifically remove that category of injuries from our record 
keeping system in a very sort of a slick way, was really 
unfortunate. I don't trust the statistics, even though I had a 
hand in helping to create the framework for them and I think if 
we look at what makes people speak up and complain about an 
injury on the job, we can address a range of issues here. Why 
does a worker complain that they're injured on the job? Why do 
they complain about safety problems at all? Do they feel free 
to speak up? Those are vastly important issues. In our 
industries, we've looked at this in great detail. We'd be happy 
to bring more of this to your attention. We've seen rates of 
nonreporting of injuries by workers to the employers of over 50 
percent, over 50 percent from California to New York to Boston 
to Las Vegas. This is rife in the hotel industry. These are 
workers who are being abused. It is highly unfortunate, totally 
distorts our understanding of the problem and our ability to 
make decent policy planning as a result. So I appreciate your 
asking the question. I urge you to look at it in more detail.
    Chairwoman Woolsey. Mr. Holt, is that the end of your list 
of questions?
    Mr. Holt. There are still two pending, actually.
    Chairwoman Woolsey. We're going to let you have your two 
pending and you're not going to get a closing statement, okay? 
Your choice.
    Mr. Holt. Fair enough.
    Chairwoman Woolsey. All right.
    Mr. Stanley. Congressman Holt, I'm excited that you looked 
at my website. My daughter put that together. It's an age old 
question of unsafe conditions and unsafe acts and it's been 
argued back and forth in the safety and health community for as 
long as I've been involved and as you know, that's been a long 
time. I cannot comment on what North East Linen and their 
employees knew or didn't know. On a general statement, all of 
us, everyone in this room deals with unsafe conditions and 
unsafe acts every day we get in our car and we go out on the 
highways. The fact is that all of us have been trained and 
think we're good drivers, yet everyone in this room breaks the 
speed limit. That's an unsafe act. We know better. We do it. We 
have all kind of reasons to do it. But we still do it. And for 
us to think that that doesn't occur in our workplaces, people 
that know their job and take a shortcut for whatever reason, 
that goes on. That's an unsafe act.
    There's many other things on the website that--and that one 
little thing is in there as it should be, but creating a safer 
workplace through correcting conditions and training workers is 
also on the website.
    The second question was I believe on joint safety and 
health committees which I am an advocate. I hesitated a little 
bit in my testimony as Rick point out because I think you can 
go further than joint safety and health committees as far as 
employee involvement. And I don't know what UTSA's position is 
on joint safety and health committees, but on a personal level, 
as a safety and health professional, I believe we would be much 
better off in addition to committees if we had them is to go 
out into the workplace and identify those workers that have 
experienced on a day to day basis in the workplace and train 
them to a level of an OSHA compliance officer and allow them to 
be eyes and ears in the workplace. That's real employee 
involvement. And that's part of an effective safety and health 
program, along with a safety and health committee. So that's my 
position personally. The Association, I don't know what their 
position is since I've just been retained by them within the 
last month.
    Mr. Holt. Thank you, and I thank the Chair and my 
colleagues for their time.
    Chairwoman Woolsey. So you're yielding?
    Mr. Holt. All done for the day.
    Chairwoman Woolsey. You're yielding your overtime. We're 
going to have a series of comments with Mr. Andrews, Mr. Payne, 
Mr. Wilson and myself, but we're going to be quick, I promise. 
They promise.
    Mr. Andrews?
    Mr. Andrews. Well, thank you very much, Madam Chairwoman, 
again, thank you for this hearing. I wanted to also thank a 
longstanding friend of mine for her mentorship in the field of 
worker safety. Laurel Brennan who is here today from the AFL-
CIO is someone I met before I became a public official. And she 
made sure in her wearing literally the hat of UNITE HERE when 
it was just called UNITE that she made sure that I became aware 
of these issues and has continued to educate me about them. I 
wanted to pay my respects for her and thank her for her work on 
my behalf and behalf of the people she advocates for.
    I would just--this is not a question, just a closing 
comment, Madam Chairwoman, with your indulgence, I think we're 
lacking in three major areas and I think you can hear this as a 
consensus of the panel. The first is we have insufficient 
personnel enforcing the OSHA law and it is our responsibility 
as those who control the power of the purse to do something 
about that and put more inspectors and more enforcers on the 
job.
    The second is I think there is insufficient sanctions and 
there are insufficient remedies when we do find a problem. 
We've heard a discussion this afternoon of broadening the 
definition of a knowing or wilful violation to include a 
multiple plant violations by one employer which I think would 
go a long way. Another idea I think we should explore in 
remedies is the idea of quicker collection of that which is 
owed. You know sometimes when people don't pay their debts to 
the federal government they're withheld from their tax returns, 
from their refunds. That's something we should strongly look at 
here. If we have an employer that is responsible for paying an 
OSHA fine, that fine should be withheld from any other payment 
to be made to that employer, including a tax refund.
    I think we should look at a stronger debarment remedy. If 
an employer is a consistent and chronic violator of worker 
safety standards, I don't think that company should be getting 
a federal contract, whether it's to build weapons for the 
military or to build a highway or do whatever else. I think a 
stronger debarment revenue would get people's attention.
    And then finally, I think Mr. Engler's point is very well 
taken. Good intentions are not good enough. You prevent worker 
safety by giving those who have the greatest stake in the 
prevention some power, some opportunity to do something about 
that. And I think the discussion that took place in the early 
1990s about mandatory workers management safety committees 
needs to be regenerated and enacted into the law.
    We're never going to have 15,000 OSHA inspectors out and 
even if we did, it wouldn't make much of a dent. But if we have 
significant remedial improvement, if we have a stronger 
definition of what a wilful violation is, and if we empower 
those who are most at risk to do something about stopping the 
risk I think we'll make the progress that we commendably have 
seen here in New Jersey.
    So Madam Chair, I appreciate the chance to hear these 
excellent witnesses today. I thank them for their participation 
and look forward to working with you and the Members of the 
Minority to pass a good law when we go back to the Capitol. 
Thank you.
    Chairwoman Woolsey. Congressman Payne?
    Mr. Payne. Let me also thank you for calling this very 
important hearing and for all of the Members of Congress who 
took time to be here today and of course, our panelists. I 
think Congressman Andrews said it right, they say that the road 
to, I'll say purgatory, is paved with good intentions and we 
have to take it out of the good intention phase and put some 
teeth into our laws. You know, Congressman Holt mentioned 
Senator Pete Williams as one of the greatest labor advocates 
ever seen in this country. I knew Pete very well. I had him in 
my local headquarters in '72 and '78 kicking off his two 
senatorial campaigns and he started his work with migratory 
workers because they were being discriminated against. They 
couldn't go to schools, here in New Jersey, they couldn't have 
bank accounts and they were Hispanic people that came into the 
State in the late '60s, early '70s and it was Pete Williams 
that championed them. And once again I see the same thing 
creeping in again. We have Hispanic workers. We have people 
from Central and South America who are in these industries that 
are unprotected and once again we're seeing continued advantage 
being taken of people who don't have a strong voice. And so we 
have to be vigilant about what's going on. We cannot continue 
to have exploitation of people who are trying to better 
themselves, but because they are sometimes intimidated by the 
law because of places they come from, the law is the last word. 
Many times they simply don't speak out. And so we can't let 
that continue.
    I'm pleased with Mr. Socolow and our Department of Labor in 
New Jersey. New Jersey will once again get back where it should 
have been. We had the highest minimum wage back in the '60s and 
'70s, but we allowed the other states to catch up and even pass 
us, but I'm glad to say that New Jersey is back up to the 
$7.25. But Governor Corzine says that next year he wants to 
index it to $8.25 minimum wage. It will be the highest in the 
country again. These are progressive steps going in the right 
direction, if it wasn't for our labor leaders like Charlie 
Wowkanech and I didn't know Ms. Brennan as long as Andrews, I 
mean she didn't teach me anything but it is good to see you.
    Let me just also say that if you have the right, we hear a 
lot of negatives, but the right thing happened in a very 
potentially deadly situation about two months ago. I was here 
in Linden with the former Mayor and the current Mayor at a 
recreational event, the annual PAL boxing tournament. And that 
evening while we were there, a police officer from Linden, I 
forget his name, but I'm sure an officer knows his name, this 
police officer was shot point blank right in the chest, knocked 
him down, but it didn't injure him seriously because he had a 
bullet proof vest on. Why am I bringing that up? Well, I bring 
it up because there was the proper protection that should have 
been there had he not had that on, it would have been a 
different outcome.
    So it shows that an ounce of prevention is much more than a 
pound of cure and if we would keep that same kind of philosophy 
as we move forward, many of these tragedies can be prevented. 
Just finally, just as we were having this meeting this 
afternoon, 2:31 a construction worker was killed, falling from 
a scaffold at Trumps Solo Hotel and Condominium Towers on a 
construction in Manhattan, plunged 30 feet down and he's dead. 
And the 46-story building has been a persistent source of 
controversy with community groups complaining about the size 
and the proposed use, and once again, today, as we sit here in 
2008 in the new millennium, 21st century, we're still not 
taking--if you're going to have people on high levels, then you 
should certainly ensure that these equipment and scaffolding, 
whatever, you can't make--they've been scaffolding for a 
hundred years. And of course we had many, many more deaths 
then, but much of this is preventable. And so I think that we 
have a lot of work to do. Once again, let me just thank the 
Chairperson and the Ranking Member for calling this very 
important meeting. Thank you very much.
    Chairwoman Woolsey. Ranking Member Wilson?
    Mr. Wilson. Thank you, Madam Chairwoman, and again, I want 
to thank the witnesses for your input today. It's been very 
helpful to me. I also want to thank the staff persons who have 
assisted us today and in particular from our office, 
Legislative Assistant Melissa Chandler who has flown up for the 
event today. Additionally, I want to thank the Chairwoman for 
her courtesies today. I think she's been very fair to everyone 
and allowed all of us the time that we could have and again I 
want to thank the Garden State Members of Congress, led by Don 
Payne with Rob Andrews and Rush Holt, again, your warm northern 
hospitality, thank you very much.
    Mr. Payne. That's what Huckabee said up in New Hampshire.
    Mr. Wilson. I was not quoting him.
    Chairwoman Woolsey. Thank you all for coming. Thank you to 
the witnesses. This panel has been so informative to us. My 
colleagues, particularly Congressman Payne for insisting that 
we get here and get here as quickly as possible. The audience, 
thank you for being here and listening and caring. It makes 
such a difference to look out at you and know that this means 
something to you. And to our staffs for putting this together, 
we're useless without them. You all know that.
    I think I can speak for all of us when I say that the 
information we've heard today about the state of the American 
workplace is deeply disturbing. I mean the very idea that we 
still ignore near misses, that the employer isn't considered 
the ultimate responsible person in any industrial accident, 
excuse me, the employer is the parent in this situation. It 
isn't looking for some irresponsible employee or an employer 
that doesn't provide the right tools and equipment. The 
employer is the boss. When it goes wrong, they are responsible, 
and we have to make sure they know it and they cannot wiggle 
their way out of it because we must make changes.
    Today, we've focused on the deaths of Victor and Carlos 
Diaz. What happened to these workers, the impact it's had on 
their families, their community, the rest of the workers in 
their companies could have been prevented, all of this, but we 
should not forget that these tragedies are repeated like 
Congressman Payne said just minutes, well, hours ago, in New 
York, at least 16 times a day, every single day of the year, 
this is the 2008. It's the 21st century. We are going 
backwards, not forwards because we're not keeping up with the 
times. And we should not forget that the rate of death for 
Hispanic workers is in this country is on the rise as well.
    These tragedies happen one at a time. We know that, but 
because of that they sometimes go unheard. The response and the 
changes are not always put in place as they should be, but they 
have a huge impact on everybody that's related to the people 
who are either killed or injured or whose lives are changed 
forever and we must do something about it and that's why we 
passed the Occupational Safety and Health Act 37 years ago and 
it's why we must keep it modern, today. What happened 37 years 
ago is much different now and we've learned a lot from 
everybody today.
    Thank you very much. You've sent us off with quite a bit 
more to do. And we will do it. You can count on us. We're not a 
very big Committee, but we're a pretty powerful little 
Committee that has our hearts, every one of us in the right 
place on this.
    Thank you again, Joe, for being here. Any Member that has 
any other questions, we have 14 days to submit additional 
materials for the hearing record and any Member who wishes to 
submit follow-up questions and writing, they have 15 days to do 
that to the majority staff and without objection, the hearing 
is concluded.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
